<html>
<title> - SUSTAINING THE SACRED TRUST: AN UPDATE ON OUR NATIONAL CEMETERIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   SUSTAINING THE SACRED TRUST: AN UPDATE ON OUR NATIONAL CEMETERIES

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, APRIL 10, 2013

                               __________

                           Serial No. 113-14

                               __________

       Printed for the use of the Committee on Veterans' Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE

80-453                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





















                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
                                     GLORIA NEGRETE MCLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














                            C O N T E N T S

                               __________

                             April 10, 2013

                                                                   Page

Sustaining The Sacred Trust: An Update On Our National Cemeteries     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman, Disability Assistance and Memorial 
  Affairs........................................................     1
    Prepared Statement of Hon. Runyan............................    27
Hon. Dina Titus, Ranking Minority Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     3
    Prepared Statement of Hon. Titus.............................    28

                               WITNESSES

Hon. Steve L. Muro, Under Secretary for Memorial Affairs, 
  National Cemetery Administration, U.S. Department of Veterans 
  Affairs........................................................     5
    Prepared Statement of Mr. Muro...............................    29
    Accompanied by:

      Mr. Glenn Powers, Deputy Under Secretary for Field 
          Programs, National Cemetery Administration, U.S. 
          Department of Veterans Affairs
Kathryn Condon, Executive Director of Army National Cemeteries 
  Program, U.S. Department of Defense............................     6
    Prepared Statement of Ms. Condon.............................    33
    Executive Summary of Ms. Condon..............................    37
Hon. Raymond Wollman, Deputy Secretary, American Battle Monuments 
  Commission.....................................................     8
    Prepared Statement of Mr. Wollman............................    37
    Executive Summary of Mr. Wollman.............................    40
Linda Halliday, Assistant Inspector General for Audits and 
  Evaluations, Office of the Inspector General, U.S. Department 
  of Veterans Affairs............................................    15
    Prepared Statement of Ms. Halliday...........................    41
    Accompanied by:

      Ms. Cherie Palmer, Director, OIG Chicago Office of Audits 
          and Evaluations, Department of Veterans Affairs, Office 
          of the Inspector General
Diane M. Zumatto, National Legislative Director, AMVETS..........    20
    Prepared Statement of Ms. Zumatto............................    44
Ami Neiberger-Miller, Director of Outreach and Education, Tragedy 
  Assistance Program for Survivors...............................    21
    Prepared Statement of Ms. Neiberger-Miller...................    47

                        STATEMENT FOR THE RECORD

Ms. Kari Lin Cowan, Surviving Spouse of CW3 Aaron William Cowan, 
  United States Army.............................................    53

 
   SUSTAINING THE SACRED TRUST: AN UPDATE ON OUR NATIONAL CEMETERIES

                       Wednesday, April 10, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Committee] presiding.
    Present: Representatives Runyan, Amodei, Titus, O'Rourke, 
Negrete-McLeod.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Good afternoon, and welcome everyone. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will come to order. We are here today to 
examine the current state of our military and veterans 
cemeteries. Our goal within this hearing is to learn more about 
the recent endeavors and accomplishments of the National 
Cemetery Administration and other organizations that are here 
today. We are also here to address the matters of ongoing 
concern that impact all of the final resting places of our 
military servicemembers, veterans, and their families, both at 
home and abroad.
    Members of this Subcommittee as well as all Members of the 
House Veterans' Affairs Committee greatly appreciate the 
incredible feats of courage and selfless service that our War 
fighters have demonstrated throughout history. Time and time 
again American servicemembers have been called upon to put the 
welfare of the Nation before their own self interests. Our 
solemn obligation to honor those who have served does not cease 
at the end of their service commitment, retirement, or 
ultimately upon death. We have a sacred trust to ensure the 
dignity of the final resting places of our military and to 
honor the memories of America's brave. As our senior veterans 
from World War II and the Korean War decrease in numbers and 
casualties from Afghanistan return home, our obligation to 
provide honor for every one of the deceased remains, remains 
acutely felt.
    This hearing will serve to conduct a broad spectrum review 
of recent cemetery memorial activities at home and abroad. We 
will receive an update on condition improvements at Arlington 
National Cemetery.
    When I first became Chairman of this Subcommittee, fixing 
problems at Arlington was a top priority and I have made it a 
prime focus of this Subcommittee's oversight during my tenure. 
From my first trip to Arlington to meet with Ms. Condon to get 
an overview to take care of a constituent headstone issue, I 
have seen it go from a place where records were kept on 
basically index cards, if you would remember the card catalogue 
from high school that most of us dealt with, in a building with 
no fire suppression, to today where everything is digitized and 
there is even a phone app that allows people to know exactly 
where their loved ones are located.
    This Subcommittee's oversight has been made much easier by 
having Ms. Condon as a partner in working and improving 
Arlington. She has taken a mismanaged, insular, previously 
corrupt environment with no leadership or structure, and along 
with her team has transformed Arlington National Cemetery into 
what the Army Inspector General has described as an 
organization transitioning from crisis management to sustained 
excellence.
    Ms. Condon, I know you are retiring in the next couple of 
months and I want to relay our thanks for your dedication and 
service to our Nation. The way that you have led your team to 
turn around Arlington has been nothing less than extraordinary, 
and it is very important that these best practices continue. I 
want to relay how much my staff and I have appreciated working 
with you to make Arlington the respectful, well run final 
resting place our Nation's servicemembers deserve.
    We will also be exploring findings of an internal audit 
conducted by the National Cemetery Administration, or as I will 
refer to the organization, the NCA, as well as the findings of 
a separate audit of the VA Office of the Inspector General, 
which was done in order to evaluate the corrective actions 
taken by NCA.
    Specifically, in October of 2011, NCA identified 
discrepancies at the Fort Sam Houston National Cemetery during 
a field test done to verify the accuracy of newly formatted 
gravesite maps. Ultimately, it was discovered that the 
headstone placement error occurred as a result of the raise and 
realign project that had been performed by a contractor. Since 
this discovery, NCA has been working to ensure that all 
gravesite errors are identified and corrected as soon as 
possible. Additionally, at the request of the House Veterans' 
Affairs Committee, the Department of Veterans Affairs Office of 
the Inspector General conducted an audit to ensure that the 
corrective actions taken by NCA have been fully effective.
    Representatives of these groups will be speaking with us 
today and will offer detail on this issue and the response that 
has been undertaken. While we all understand the duty that is 
owed to those who have served in uniform, we must also 
recognize that our responsibility extends to the families of 
these veterans. It is the responsibility of NCA and other 
groups here today to provide a dignified and secure environment 
for families who visit their loved ones' resting places. We 
must be cognizant that if mistakes are made, the sacred trust 
is compromised and unnecessary trauma and heartache result to 
our military, family, and friends.
    I would like to welcome our witnesses today. These 
panelists play a significant role in ensuring that our Nation 
fulfills our responsibility to honor to those who have served. 
We all hope that through discussions and questioning such that 
will occur today, we can work collectively not only to meet the 
challenges, but to exceed the standard.
    Under Secretary Muro is here on behalf of the National 
Military Cemeteries Administration, which oversees 131 
cemeteries nationwide. Ms. Kathryn Condon is here representing 
the Army National Military Cemeteries, which includes perhaps 
the most recognizable site of our honored fallen here in 
Arlington National Cemetery. Deputy Secretary Wollman 
represents the American Battle Monuments Commission, whose 
mission is to serve our country's fallen heroes and the missing 
in action where they have served overseas.
    Next we have Ms. Linda Halliday who serves as the Assistant 
Inspector General for Audits and Evaluations, Department of 
Veterans' Affairs, Office of the Inspector General. She is 
accompanied by Cherie Palmer, who is Director of the Office of 
the Inspector General Chicago Office of Audits and Evaluations.
    And we will also be hearing from Ms. Diane Zumatto, who is 
serving as the National Legislative Director of AMVETS, as well 
as Amy Neiberger-Miller, who is Director of Outreach and 
Education with Tragedy Assistance Program for Survivors.
    And finally a statement for the record has been received 
from Ms. Kari Cowan, who is the surviving spouse of Chief 
Warrant Officer 3, Aaron William Cowan, of the United States 
Army. Ms. Cowan was affected by a memorial marker misplacement 
at the National Memorial Cemetery of the Pacific Punchbowl in 
Hawaii.
    With those introductions complete, I am eager to hear of 
the progress that has been made in regards to National 
Cemeteries corrective actions, and I am also looking forward to 
hearing from our American Battle Monuments Commission, 
Arlington National Cemetery, and veterans service 
organizations. Thank you all for being here today and I will 
yield to the Ranking Member for her opening statement.

    [The prepared statement of Chairman Runyan appears in the 
Appendix]

              OPENING STATEMENT OF HON. DINA TITUS

    Ms. Titus. Well thank you, Mr. Chairman. And thank you for 
holding the hearing on this very important topic. I also want 
to thank our witnesses who you have introduced for taking time 
to be here, for their flexibility with the rescheduling of this 
hearing.
    Like you, Mr. Chairman, it is my belief that a proper 
burial for the Nation's veterans is a solemn obligation that we 
have. It is interesting to look at the history of the National 
Cemetery Administration. Over the years, I know that it has 
grown dramatically since its creation in 1862 when those first 
14 cemeteries were established to serve as a permanent resting 
place for our veterans, those original ones who had served in 
the War Between the States.
    On July 17th of that year, Congress enacted legislation 
that authorized the President to purchase cemetery grounds to 
be used as a national cemetery for soldiers who had died in the 
service of the country. And let us not forget those words, 
``Died in the service of the country.'' Then in 1873, all 
honorably discharged veterans became eligible for burial.
    Since then the NCA has expanded its geographic diversity to 
better serve veterans all across the country. And recent 
legislation has even further expanded NCA's reach to urban and 
rural areas.
    However, while you have expanded and access has grown 
significantly, there is still a very large population of the 
Nation's veterans who do not have the option of being buried in 
one of our Nation's prestigious National Veterans Cemeteries. 
In fact, the state with the largest veterans population that is 
not served by a national cemetery just happens to be my State 
of Nevada, where you have about 230,000 veterans, many of them 
in my district in Las Vegas. In total, 11 states with a 
combined veteran population of 1.8 million are without any 
national cemetery at all.
    There are 131 national cemeteries across the country. New 
York alone has seven active cemeteries. Three other states have 
six active national cemeteries each, and Puerto Rico has two.
    I look forward to hearing your thoughts about ways that we 
can provide veterans with better access to national cemeteries 
in those states that currently do not have one. And I would 
like to point out to you that that seems to be in the West. And 
I just happen to have a map that kind of shows just where they 
are. This whole yellow area in the West is the area without a 
national cemetery.
    I am also well aware of some of the recent challenges that 
you have faced with regards to the audits that the National 
Cemetery Administration itself initiated. And I think that is 
an important point, that you recognized it and began to address 
the problem on your own without being forced to do so. Although 
it is always disturbing and unacceptable to hear of those 
instances in which veterans were incorrectly interred or the 
incorrect markers were placed, I applaud you for what you have 
done to make the corrections. Taking the initiative to 
recognize the need for the review, identifying the issues that 
were the problem, and now that the report has come out working 
in various ways in the different cemeteries to correct the 
problems. I also applause the VA OIG in working with the VA to 
improve the audit process itself.
    Most important is that these instances are identified and 
corrected. This allows the loved ones the peace of mind that 
they deserve in these very difficult times, when they face the 
burial of a member of the service.
    I would ask you that you would continue to conduct these 
audits on a rolling basis, identifying quality controls as you 
go to ensure that mistakes such as these are not happening 
again. And that you continue to keep this Committee apprised of 
your progress and what is being done.
    Another point I would just like to make is, at the end of 
March, I sent a letter to Secretary Shinseki commending him for 
allowing the first same sex couple burial in a national 
cemetery. I was joined by 40 of my colleagues to urge the 
Secretary to grant similar waivers in the future. It is only 
right that those who bravely serve this country should be laid 
to rest next to the person they love. So I thank you for 
addressing that as well.
    So today I welcome the witnesses. I am also, I am sorry 
that I will not have the chance to work with you, Ms. Condon 
because it sounds like you have done a wonderful job at 
Arlington. I commend the work that you do to uphold this sacred 
trust. And I look forward to hearing from you. Give us the 
perspective that we need to ensure that our families of our 
veterans are served during difficult times. So thank you, Mr. 
Chairman.

    [The prepared statement of Hon. Dina Titus appears in the 
Appendix]

    Mr. Runyan. Thank you very much. And again, good afternoon 
everybody. The first panel is seated at the witness table. We 
are going to hear from Under Secretary Muro, then we will hear 
from Ms. Condon, and finally Deputy Secretary Wollman. So with 
that, Secretary Muro you are now recognized for your statement.

 STATEMENT OF THE HONORABLE STEVE L. MURO, UNDER SECRETARY FOR 
   MEMORIAL AFFAIRS, NATIONAL CEMETERY ADMINISTRATION, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY MR. GLENN 
  POWERS, DEPUTY UNDER SECRETARY FOR FIELD PROGRAMS, NATIONAL 
 CEMETERY ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
    MS. KATHRYN CONDON, EXECUTIVE DIRECTOR OF ARMY NATIONAL 
    CEMETERIES PROGRAM, U.S. DEPARTMENT OF DEFENSE; AND THE 
 HONORABLE RAYMOND WOLLMAN, DEPUTY SECRETARY, AMERICAN BATTLE 
                      MONUMENTS COMMISSION

                   STATEMENT OF STEVE L. MURO

    Mr. Muro. Thank you, Chairman Runyan, and Ranking Member 
Titus, and other Members of the Subcommittee. I have with me 
today Mr. Glenn Powers, Deputy Under Secretary for Field 
Operations. I appreciate the opportunity to highlight some of 
the administration's accomplishments in the year since I last 
appeared before you.
    This past July 17th, we commemorated the 150th anniversary 
of the enactment of Public Law 165. That legislation, signed by 
President Lincoln in 1862, created the national cemetery 
system. From that day to this, we and all the cemeterians 
before us, have considered ourselves keepers of a sacred trust. 
We fulfill this sacred trust in partnership with our colleagues 
here today from the Department of the Army, the American Battle 
Monuments Commission, and also with enduring support of this 
Committee in Congress, the veterans service organizations, and 
the American people. Together, as President Lincoln wrote, ``We 
pay tribute to those that gave our lives so that the Nation 
might live.'' We recommit ourselves daily, and with each 
passing year, to fulfilling Lincoln's timeless promise of 
caring for all of those who have borne the battle.
    In this past year, we have completed the first ever 
comprehensive review of more than 3.2 million gravesites at VA 
national cemeteries. As promised, we made timely notifications 
to Congress and next of kin regarding our findings, and advised 
them of any corrective actions. We formulated a sustainment 
plan with accountability procedures and specific contracting 
requirements to make certain our national cemeteries are always 
operated as national shrines.
    In 2012, we also worked to increase veterans access to 
burial benefits in three important ways. First, we completed 
$31.8 million worth of expansions and improvements projects at 
our national cemeteries. Second, we initiated land acquisition 
and planning efforts for construction of five new national 
cemeteries along with five columbarium-only sites in dense 
populated urban areas, and eight National Veterans Burial 
Grounds in rural communities. Third, we awarded 18 grants to 
states and tribes to build or improve veterans cemeteries they 
manage. Taken together, these actions will contribute to 95 
percent of the veterans having a burial option within 75 miles 
of their home by 2015. That is up from just 75 percent of the 
veterans with access as recently as 2004.
    We also launched an online resource kit for funeral 
directors last year containing pertinent information to help 
families plan for burials and apply for VA benefits. This new 
Web site features videos narrated in English and Spanish that 
show families what they can expect on the day that they bring 
their loved ones for burial at one of our national cemeteries.
    Last March, I told you about an idea to train homeless 
veterans as apprentices for permanent employment as cemetery 
caretakers. That pilot program was inaugurated last October at 
five of our national cemeteries and we now have 21 apprentices 
onboard. Thanks to the outstanding cooperation of VHA's 
Homeless Veterans Initiative Office and VA Learning University, 
the program offers participating veterans a fresh start and 
adds committed new members to the NCA team. Like all NCA 
training, the apprenticeship curriculum reinforces our high 
standards for cemetery appearance and customer service.
    We continue to achieve high levels of customer 
satisfaction, as measured by the annual survey of veterans' 
next of kin and the funeral directors. Ninety-six percent of 
respondents in our 2012 client satisfaction survey rated the 
customer service as excellent. Ninety-nine percent also rated 
the appearance of our national cemeteries as excellent, and 
further indicated that they would recommend a national cemetery 
to other veterans' families. Results like this do not happen by 
accident. They reflect our ongoing commitment, and yours, to 
delivering burial benefits in a manner that expresses our 
Nation's gratitude for the service and sacrifice of our 
veterans, their families, and their survivors.
    I thank you for this opportunity and your support for NCA 
as we serve those who have served us so well. Thank you, and I 
am ready for questions.

    [The prepared statement of Steve L. Muro appears in the 
Appendix]

    Mr. Runyan. Thank you, Under Secretary Muro. Ms. Condon, 
you are now recognized.

                  STATEMENT OF KATHRYN CONDON

    Ms. Condon. Chairman Runyan, Ranking Member Titus, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to provide an update on the tremendous progress at 
Arlington National Cemetery. And Chairman Runyan, thank you not 
only for your kind words, but for your support and the 
tremendous support of your staff over the last several years at 
Arlington.
    To the new Members of the Committee, long gone are the 
typewriters, the three-by-five index cards, and the paper maps 
colored in with pencils. In less than two years, we are the 
first national cemetery to geospacially manage cemetery 
operations. Arlington has achieved as directed by Congress the 
baseline accountability of all its burial records and created a 
single, verifiable, and authoritative database of all those 
laid to rest at the cemetery. This database is linked to our 
digital mapping system which allows us now to not only assign, 
manage, but to track our gravesites electronically.
    Leveraging this technology, on October 22, 2012, we also 
launched ANC Explorer. The first version of this free, Web-
based application allows families and the public to locate 
gravesites, events, and other points of interest throughout the 
cemetery; to generate front and back photos of a headstone or 
monument; and to receive directions to those locations. And to 
date I am proud to say that we have had 30,465 downloads of our 
app. So now that allows the public to honor, remember, and 
explore the national shrine virtually, wherever they want, 
whenever they want. We have installed kiosks with ANC Explorer 
at our welcome center and we are about to put them throughout 
locations in the cemetery.
    We have implemented energy, environmental, and 
sustainability initiatives to minimize our impact on the 
environment and enhance our natural greenspace.
    We have changed our acquisition and resource management 
processes and procedures to be not only responsible stewards of 
all funds provided, but to remain compliant with all 
regulations and guidelines.
    And finally, we are committed to maintaining Arlington as 
an active cemetery for as long as possible for our Nation's 
military heroes. We have three expansion projects, columbarium 
court nine, the millenium project, and the Navy annex. And once 
complete these projects are expected to extend Arlington's 
first interment burials well into the 2050s.
    With the great support of this Committee, in less than two 
years we not only broke ground on the ninth columbarium court, 
increasing our cremation space by 20,296 niches, but we will 
dedicate that columbarium on the ninth of May. So please mark 
your calendars. An invitation will be coming shortly on that.
    I could not be more proud of the men and women of Arlington 
who have worked diligently to restore the honor and dignity 
across every aspect of this national shrine. And while we have 
made great strides, work remains to complete the critical 
repairs of our crumbling infrastructure and to improve our 
service to our veterans by reducing the wait time between the 
family's initial request and the actual burial.
    Mr. Chairman and ma'am, you have my promise that through 
diligent efforts adherence to the established procedures and by 
leveraging technology, Arlington will continue to do all within 
its power to sustain the trust it has recently reclaimed. And 
all burial services and ceremonies will be conducted with the 
honor and dignity our families, our veterans, and all who visit 
the cemetery deserve. Thank you, and I look forward to your 
questions.

    [The prepared statement of Kathryn Condon appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Condon. And with that, Deputy 
Secretary Wollman, you are now recognized for your testimony.

                STATEMENT OF RAYMOND J. WOLLMAN

    Mr. Wollman. Thank you, Chairman Runyan, Ranking Member 
Titus, Members of the Subcommittee. Thank you for this 
opportunity to discuss the mission, operations, and programs of 
the American Battle Monuments Commission.
    ABMC's core mission is commemoration. We execute that 
mission by maintaining commemorative sites to an unparalleled 
standard of excellence and by providing historical context for 
why our monuments and cemeteries were established, why those 
memorialized within them died, and the values for which they 
died.
    On Veterans Day in November, ABMC dedicated Vietnam battle 
maps at our Honolulu Memorial. When the memorial was built in 
the 1960's, it included maps commemorating World War II in the 
Pacific and the Korean War. But maps commemorating the Vietnam 
War had never been added. That oversight is now corrected and 
Americans who served during the Vietnam War are appropriately 
honored at our most visited memorial. I want to thank the VA 
for their support, Mr. Muro and his team. This is uniquely a 
joint ABMC-VA site in Honolulu. And without the help of Mr. 
Muro and his team we could not have done it.
    In Europe, we have three interpretation program visitor 
center projects that will be completed this year. One at the 
Cambridge American Cemetery in England; at the Sicily-Rome 
Cemetery, south of Rome, Italy; and at the Pointe du Hoc Ranger 
Monument in France near our Normandy Cemetery. Most of our 
cemeteries, however, receive far fewer visitors than these 
three sites. To better tell their stories to a broader 
audience, we have been turning to technology. Our first mobile 
app, a tour of the Pointe du Hoc battlefield was released in 
December. We plan to produce apps and virtual tours for all of 
our sites so we can bring these national historic assets to 
life not only to our visitors, but on our Web site and in our 
classrooms.
    Turning to the Pacific Region, at the United Nations 
Cemetery in Pusan, Korea, most of the allied Nations have 
memorials in the cemetery honoring their armed forces. The 
United States does not. We are fixing that. We will begin 
construction on a monument this Spring and plan to dedicate it 
in July on the 60th anniversary of the signing of the Korean 
War Armistice.
    Public Law 112-260, the Dignified Burial and Other Veterans 
Benefits Improvements Act of 2012, authorizes ABMC to restore, 
operate, and maintain Clark Veterans Cemetery in the 
Philippines. As required by law, the U.S. government is 
negotiating an agreement with the Philippine government to 
allow the ABMC to begin maintaining this cemetery. When such an 
agreement is reached, we will use existing funds to begin 
minimum maintenance with the crew from our Manila Cemetery, 
which is about an hour away from Clark and to contract for a 
full assessment of the site to determine restoration and 
maintenance requirements. Congress authorized $5 million for 
restoration. This may be insufficient for a cemetery that is 
partially covered in volcanic ash and may have other unknown 
infrastructure issues. We will not know the true cost until we 
complete a site assessment. Nonetheless, the mission has been 
assigned to the ABMC and we will work towards executing that 
mission when an agreement allowing us to do so has been signed 
with the Philippine government.
    Under the Consolidated and Further Continuing 
Appropriations Act of 2013, ABMC's total budget authority is 
$73.347 million. This is a $253,000 decrease from our fiscal 
year 2013 budget request. This $73 million takes into account 
the March 1, 2013 sequestration order and two recessions 
included in the public law. We will take this reduction in 
areas with the least impact on cemetery operations. We do not 
plan to furlough any of our staff.
    The essence of the Commission's mission success does not 
change from year to year. Keep the headstones white, keep the 
grass green, and tell the story of those we honor. With the 
support of the administration and the Congress, we will 
continue to ensure that the Commission's overseas shrines to 
American service and sacrifice reflect our Nation's commitment 
to honoring those who sacrificed on our behalf.
    Mr. Chairman, Members of the Subcommittee, as always we 
invite you to visit these inspirational sites during your 
overseas travels. Thank you for allowing me to present this 
summary of our mission, operations, and programs.

    [The prepared statement of Raymond J. Wollman appears in 
the Appendix]

    Mr. Runyan. Thank you, Deputy Secretary Wollman. You may 
not know because our bells did not go off in here, but there is 
a vote being called on the House floor. I would probably 
anticipate that we would be back in about a half hour. So the 
Committee will stand in recess until approximately 3:30.
    [Recess.]
    Mr. Runyan. The Subcommittee will now come to order. We 
will begin the first round of questions, and I want to start 
with Under Secretary Muro. It clearly comes across that the 
majority of NCA staff is very hardworking and dedicated to the 
NCA mission. However, this Subcommittee received a personal 
statement from a surviving spouse, Ms. Kari Cowan, regarding 
her experience with a misplaced memorial marker at the National 
Memorial Cemetery of the Pacific at the Punchbowl. Ms. Cowan 
noted that she was treated with a shocking level of 
insensitivity and disrespect when she alerted the cemetery that 
her husband's marker was missing in 2011. The manner that Ms. 
Cowan's concern was handled by the Punchbowl management staff 
was nothing short of shameful, if you have had an opportunity 
to read her testimony. The cemetery's head groundskeeper and 
its public affairs specialist did not seem to improve Ms. 
Cowan's situation, nor did the cemetery director take any 
useful, proactive steps in fixing this problem. How will a 
situation such as Ms. Cowan's be handled by the National 
Cemetery staff going forward, and how did you convey the NCA's 
expectations to all of your cemetery employees?
    Mr. Muro. Thank you, Mr. Chairman. First of all, I would 
like to apologize to Ms. Cowan for the situation that happened 
at the Punchbowl. Second, at the last conference, we did talk 
to all of the directors about this situation and we also have 
held those that were responsible for it accountable. It is not 
acceptable what was done. But we do have procedures in place 
that ensure that if we are doing any type of marker movement or 
headstone movement, whether they be gravesites or memorial 
sections, we notify the next of kin. That was not originally 
done, but we have done so now to the impacted families. We have 
apologized. And we have acted on her request that her husband's 
memorial marker be moved to another cemetery. We ordered a new 
marker and it is at Fort Bayard National Cemetery in New 
Mexico. At the Punchbowl, we had the director call all impacted 
next of kin that he was able to reach and talk to them and let 
them know what had been done. We then sent letters to those 
families that we could not contact by phone in order to request 
that they contact us or give us a number where we can contact 
them. We will ensure that it does not happen again at another 
national cemetery.
    Mr. Runyan. Is the proactive communication of the movement 
of a marker part of your standard operating procedure?
    Mr. Muro. Yes, it is. We do not normally move markers 
unless we are doing renovation type work. We do not normally 
resize sections. We might add rows and add graves to the end of 
rows, but normally we do not resize a section. So if that would 
have come up through the channel it would not have been 
approved. So we have held the people accountable that did that, 
and also ensured that they received the training they need so 
they do not do that again. Also, when a family comes with a 
problem, we need to know what the problem is so we can research 
it to get the facts down.
    Mr. Runyan. The next question is also for you. We have 
volunteer historian veterans organizations, local governments, 
and funeral professionals working diligently to search through 
the archives of death records, military records, and 
genealogical records to seek VA headstones for some of our 
Civil War veterans who are buried in unmarked graves. We have 
been told that the VA has in recent years put into place a new 
barrier for this initiative requiring approval from the next of 
kin. These local volunteers are essentially skilled 
researchers. If they could identify and locate a Civil War 
descendent, they would jump at the chance. The reality is that 
many of these veterans in unmarked graves tend to be poor young 
minorities with few, if any, family at the time they paid the 
ultimate price. When we make it absolutely necessary to get the 
next of kin approval, we are turning a success story into 
another reason for our citizens to be disappointed with 
government bureaucracy.
    On behalf of one of my constituents, Mr. Richard Bareford 
of Medford, New Jersey, he has been in contact with the NCA 
pursuing two group monuments for veterans who died in the 1937 
Labor Day Hurricane to be honored with one on the overseas 
highway near Islamorada, Florida, and one at Woodlawn Park 
North Cemetery in Miami. He is a historian who is seeking to 
have these monuments dedicated before the 80th anniversary, but 
he is not next of kin to any of the deceased so his request has 
not been granted.
    One of the recent letters sent from a group in Ohio, to VA, 
asked VA to consider a couple of alternatives and we are told 
that the VA response did not even acknowledge that the two 
thoughtful remedies had been suggested. The two possibilities 
include to amend Section 38.632(b)(1) to include if no next of 
kin exist or can be located, applications may be filed by 
military researchers, local historians, genealogists or other 
who are familiar with the research sources or methods needed to 
prove the veteran's identity and service. Or the next solution, 
align the VA policy with the archives records policy at the 
National Archives and Records Administration for requesting 
military records, which does not require next of kin 
authorization for records dating back 62 or more years. Such 
policy could be stated as, quote, ``applications for headstones 
or markers for eligible individuals who have been deceased 62 
or more years prior to the date of application may be submitted 
by anyone familiar with the research sources and methods needed 
to prove a veteran's identity and their service'', end quote. I 
think these seem reasonable to consider. I would like to know 
if the VA has considered these alternatives and how you would 
respond to this group that seems more than willing to work with 
the VA to find a remedy to this, or to Mr. Bareford who is 
seeking the two group memorials.
    Mr. Muro. Yes, Mr. Chairman. We are actually reviewing that 
regulation. And we are going to do some rewrites to it. It was 
a few years ago. It was redone for many reasons. And it appears 
that they made it overrestrictive. There were some issues where 
individuals would come in and change information, and then next 
of kin would show up and say who changed the stone? So we want 
to make sure that does not happen. But we also want to make 
sure that it is not as restrictive as it is. And we are looking 
to change that so that it is more user friendly, especially 
with the VSOs that normally order headstones for many of their 
members. When we get the proposed rule ready, we will put it 
out for public comment. We will keep the Committee informed to 
let you know when we get ready to publish.
    Mr. Runyan. We appreciate that cooperation and 
communication. With that, I will yield to the Ranking Member 
Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Mr. Muro, as I 
mentioned in my opening comments, Nevada is one of those 
western states that has no national cemetery. And I just want 
to hold this map up again because it is just so telling about 
all of these western states where you do not have a national 
cemetery. So I wanted to ask you, are there any plans? Or is 
that a goal? Or is that a dream to have any VA cemeteries in 
these areas, or especially in Las Vegas? And do you think maybe 
the current funding formula works to the disadvantage of 
veterans who are in the West? And finally, if that is not 
happening, or if it is sometime in the future, are there things 
that you can do better with some of the state cemeteries that 
exist? We have a state cemetery in Boulder City, but there was 
a terrible incident where an employee took headstones home and 
turned them into a patio, and that is because there is not the 
kind of oversight and regulation that you find at the national 
cemetery. So would you address those issues for me?
    Mr. Muro. Sure, Congresswoman. First of all, we are coming 
to Nevada. There are six states out West that have no national 
presence. And one of the Secretary's charge and one of our 
goals, the Secretary's and mine, is to have National Veterans 
burial Grounds in those states that do not have coverage by a 
national cemetery. And so with our budget in 2013, we put forth 
the new rural initiative. With a veteran population of 25,000 
or less, we will build a national cemetery presence in those 
states so that we can provide better service to the veterans in 
areas that do not meet the policy thresheld for a national 
cemetery. Prior to the current criteria for 80,000 veterans in 
a 75-mile radius, we used 170,000 veterans in a 75-mile radius 
to determine where we would build a national cemetery. So we 
closed that gap in 2012 by establishing our current policy.
    In reference to the Boulder State Veterans Cemetery, it is 
the second busiest state cemetery in the Nation. There are 88 
operating state cemeteries at the present time. We are 
continuing to work with the states to open up more. In 
reference to their employees taking the headstones and using 
them for patios, which is an unauthorized use. They knew it. 
Because any state cemetery that is open we provide them our 
policies, our guidance, they are asked to follow everything we 
do. So it was a surprise to us that that happened. 
Unfortunately it happens at not just state cemeteries. It has 
happened at other cemeteries and we get calls every so often 
that somebody finds some headstones. NCA picks them up and we 
dispose of them properly. The state knew how to dispose of 
them. That employee no longer works for the state. I am willing 
to come and talk with you.
    Ms. Titus. Right.
    Mr. Muro. We are going to have presence in those western 
states. That is our goal between now and 2015, to open up 
National Veteran Burial Grounds in those six states of the West 
that do not have them.
    Ms. Titus. Well that is good news. I appreciate that. 
Because that 75 miles is like driving across town in Las Vegas. 
That distance does not mean very much in states like Nevada and 
Montana and Idaho and things like that. So I appreciate it.
    I am also working on something to help Native Americans 
with headstones in tribal cemeteries.
    Mr. Muro. Yes.
    Ms. Titus. I know we look to you for some assistance with 
that.
    Mr. Muro. Yes. We supply headstones to any veterans, 
whether they are in a state cemetery, a private cemetery, or 
national cemetery. And we are working with your office and with 
Congress in reference to providing the headstones for the 
spouses. When the legislation was granted they gave us 
authority to grant funds for tribal organizations to develop 
tribal cemeteries. They left out the part of spouses and 
dependents being able to, so we need to have the legislation 
updated so that we can provide them headstones so that they do 
not have to pay for them. Just like we do at the state 
cemeteries. We provide a headstone for anyone that is buried at 
that state, same thing at a national, or at Arlington. Anyone 
buried in that cemetery gets their name on the headstone. It 
may be the same headstone if there are multiple family members 
in the same grave.
    Ms. Titus. Well, thank you very much. Thank you, Mr. 
Chairman.
    Mr. Runyan. Mr. O'Rourke?
    Mr. O'Rourke. Thank you, Mr. Chairman. Mr. Muro, I have a 
couple of questions related to Fort Bliss National Cemetery, 
which is in the district that I represent in El Paso, Texas. 
And as you know, more than a decade the decision was made to 
replace the natural turf and grass at Fort Bliss National 
Cemetery with zeroscaping design, that while very beautiful and 
frankly better maintained than the turf had been prior to the 
installation of the zeroscaping, leaves a number of people in 
my community, especially the widows and friends of veterans who 
passed away and many of whom gave the ultimate sacrifice in 
their service to this country, leaves them a little cold. And 
while you all have been incredibly responsive to our questions 
and requests about this issue, and I want to publicly thank you 
for being, for doing so, most of your answers involve the 
public's happiness with the maintenance of the zeroscaping as 
it is today and do not really address the issue of whether the 
public, and especially the veterans community and their family 
and friends, would like to see grass turf instead of the 
zeroscaping. And it is, I can tell you from the canvassing I 
did in order to get here in talking to hundreds if not 
thousands of veterans door to door, it was a constant refrain, 
that they were upset with the zeroscaping decision.
    I want to add publicly that I think this decision was made 
in the context of some misinformation at the time about the 
availability of water in El Paso. And that misinformation has 
since been corrected. We have an exceptional supply long term 
of water for El Paso from the Rio Grande, from our underground 
aquifers. We also, as you probably know, through a partnership 
with Fort Bliss have the world's largest inland desalinization 
plant. And right next to the Fort Bliss National Cemetery is 
the Fort Bliss Golf Course, which for many of these widows and 
friends of veterans, and veterans in the community, adds insult 
to injury. That you have a perfectly watered, greened, and 
manicured golf course that is much larger in acreage than the 
cemetery.
    Let me conclude by saying that the cost savings are 
indisputable. And black and white, this is a no-brainer. We 
should be zeroscaping. But as you probably are well aware, this 
is not a black and white issue for the people who care most 
about the cemetery.
    So I have two questions. One is, I would like some advice 
in continuing to work with you and your office to see if we 
cannot correct this problem, or what that path might look like. 
What the process is to reverse a zeroscaping decision? And the 
second question is, even if this is a ballpark estimate, in 
terms of national cemeteries that you oversee, how many of 
them, or what percentage of them, are zeroscaped versus having 
natural grass?
    Mr. Muro. Thank you, Congressman. There are actually three 
national cemeteries that have waterwise landscaping. Fort 
Bliss, Arizona, and Bakersfield National Cemeteries. We opened 
Bakersfield about three years ago. We opened it with waterwise 
landscaping as was Arizona when it was originally opened.
    We did not convert because of the cost of the water. We 
converted because we could not maintain the turf. We had many 
complaints. In 2004, we transferred more property from the 
base. We opened the new acreage with the waterwise landscaping. 
We had a lot of positive feedback. In fact, this year 97 
percent of the respondents that we surveyed that had their 
loved one buried at the national cemetery responded that the 
grounds maintenance and appearance was excellent.
    We had a lot of complaints in the past because we could not 
maintain the turf. We literally struggled to maintain the turf. 
With the waterwise landscaping, the appearance is nice. We get 
enough water so that we can run the drip system to the plants 
that are there, so we can keep color most of the year. So the 
system is good. In fact this year the State of Texas is 
recognizing Fort Bliss National Cemetery as a recipient of the 
Texas Environmental Excellence Award for water conservation.
    Anything we can do to work with you, I am willing to meet 
with you. And to work with the veterans to see what we can do 
to improve. One of my big concerns is we are running out of 
space. We are working with DoD to see if we can get more land 
but it does not look like it will be adjacent to the current 
property. One of our goals is to keep national cemeteries open, 
and we want to continue to provide services to the veterans in 
the Fort Bliss area. Especially since the Army is increasing 
the size of their base there. So we know the population will 
increase in the Fort Bliss area.
    Mr. O'Rourke. I appreciate that, and I appreciate your 
answer on the number of zeroscaped or cemeteries that are 
saving water, and you mentioned the three including Bliss. And 
if I hear you correctly you are willing to at least meet with 
us and talk about what we can do to address these concerns 
within the community. And I think that is a good start.
    Mr. Muro. Right.
    Mr. O'Rourke. So I appreciate that. Thank you.
    Mr. Muro. You are welcome. Thank you.
    Mr. O'Rourke. Thank you, Mr. Chair.
    Mr. Runyan. Thank you. And with that, I have one more 
question for Mr. Wollman. And you both are also welcome to ask 
further questions if you would like. It was brought to the 
Committee's attention concerns on the bilateral agreement with 
Clark Cemetery. We have been informed that ABMC has inserted 
language that only veterans or scouts who served prior to 1947 
continue to be interred at Clark. If that is the case, it 
concerns the Committee as we are aware that many of the 
veterans who have restored the cemetery over the recent 
decades, and who have buried their fellow comrades over the 
years at the site. Does that bilateral agreement contain this 
new limitation?
    Mr. Wollman. Mr. Chairman, no it does not. We have been in 
contact with the groups and we understand their concerns. The 
confusion was really about comma placement and a period 
placement, I think, that confused things. It is Philippine 
scouts who are restricted to those that served before 1947 as 
part of the United States Army therein. But all U.S. veterans 
are still, are eligible under our, under the agreement that we 
are in the process of putting forward.
    So that is incorrect. And we have been in contact with the 
citizens, our citizens down there in Manila that are concerned 
about this issue. And we have actually asked the State 
Department to rewrite the sentence so that there are two 
separate sentences and it makes that distinction clearer. So I 
understand why the confusion developed. But it was not the, 
that is not the, the intention of ABMC.
    It has been rewritten and given to the Philippine 
government. So that change to make that absolutely explicit is 
what is before the Philippine government now. We are waiting 
for a response from the Philippine government. These 
negotiations are being handled by State Department, as is the 
requirement in the law.
    Mr. Runyan. Thank you for that clarification. And with 
that, Ms. Titus, anything further?
    Ms. Titus. I would just ask the two of you if you have 
concerns about the impact of sequestration on what you are 
doing at Arlington and beyond?
    Ms. Condon. Ma'am, in fiscal year 2013 we have been able to 
absorb our sequestration cuts. We have modified our projects 
that we have outstanding. And because we still have some prior 
year dollars left, we will be able to handle our day to day 
operations. I am tremendously concerned if sequestration 
continues through the out years. Because then it will have an 
impact on burial operations at Arlington.
    Ms. Titus. Thank you. Mr. Wollman?
    Mr. Wollman. Yes, ma'am. My answer is essentially the same. 
There is an impact with sequestration. It is, we have managed 
to render its impact minor for this year. In the next year our 
request in fiscal year 2014 is the same as our 2013 
appropriations, so we do not anticipate that there will be 
additional impacts. So we feel confident that we can go forward 
under the impact of sequestration using some, by being very 
careful with our appropriation.
    Ms. Titus. Thank you.
    Mr. Runyan. Mr. O'Rourke, anything further? Well, ladies 
and gentlemen on behalf of the Subcommittee, I thank you for 
your testimony. We look forward to continuing to work with you 
on these important matters. And you are now excused.
    At this time, I would like to welcome our second panel from 
The Department of Veterans Affairs, Office of the Inspector 
General, Ms. Linda Halliday, as well as Ms. Palmer.
    Ladies, we appreciate your attendance here today and your 
complete and written statement will be entered into the hearing 
record.
    And with that, Ms. Halliday, you are now recognized for 
five minutes for your testimony.

 STATEMENT OF LINDA HALLIDAY, ASSISTANT INSPECTOR GENERAL FOR 
   AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY CHERIE PALMER, 
 DIRECTOR, CHICAGO OFFICE OF AUDITS AND EVALUATIONS, OFFICE OF 
     INSPECTOR GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF LINDA HALLIDAY

    Ms. Halliday. Chairman Runyan, Ranking Member Titus, 
Members of the Subcommittee, thank you for the opportunity to 
discuss the OIG's audit results related to the National 
Cemetery's Phase I Internal Gravesite Review.
    I am accompanied by Ms. Cherie Palmer, our Director in our 
Chicago Audit Operations, who led the audit work on this 
effort.
    NCA maintains approximately 3.2 million gravesites at 131 
national cemeteries in 39 states and Puerto Rico and 33 soldier 
lots and monuments.
    In FY2012, NCA conducted approximately 118,000 interments 
and processed about 355,000 applications for headstones and 
markers for placement in the cemeteries.
    In October 2011, NCA initiated a proactive review to verify 
headstone and marker placement in all burial sections where 
major renovation projects to raise and align headstones and 
markers were completed.
    The self initiated review followed the August 2011 
discovery of 47 markers that were offset by one gravesite in a 
burial section in Fort Sam Houston National Cemetery. This 
resulted in placing four remains in the wrong gravesites.
    For Phase I, NCA reviewed nearly 1.6 million gravesites at 
93 national cemeteries and identified 251 gravesite errors at 
13 of the cemeteries. Subsequently, we reviewed a sample of 200 
gravesites at each of 12 statistically selected national 
cemeteries to insure headstones were accurately placed and we 
identified seven additional gravesite errors.
    NCA's review procedures did not identify and report all 
gravesite errors. Further, NCA lacked controls to ensure 
independence because their review was performed by their 
cemetery directors.
    In addition, the reviews were planned and implemented 
without considering the size, complexity, and age of the 
cemeteries.
    The cemetery directors told us, it was challenging to 
complete and certify to the results by December 31, 2011. When 
we identified the errors not reflected in the directors' 
certifications, we questioned the validity of those 
certifications.
    We found that cemetery directors were not provided updated 
maps and accurate gravesite maps to support these reviews. The 
maps reflect the usage of gravesites at the memorial sites.
    In July of 2012 we issued a management advisory memorandum 
and recommended that NCA revise current gravesite review 
procedures to insure the accuracy in reporting of their 
results.
    We recommended NCA plan and complete another review using 
revised procedures, and finally that NCA research the reasons 
why cemetery directors' certifications did not disclose the 
conditions we had identified. We recommended that NCA 
leadership take administrative action as deemed appropriate.
    In response to our advisory memorandum, Mr. Muro worked 
with my staff to revise and test more comprehensive procedures 
at nine of the 12 cemeteries we visited. Using the revised 
procedures, NCA identified 146 additional gravesite errors at 
four other cemeteries. This, compared to initially identifying 
a total of 251 errors during the Phase I review.
    The internal gravesite review procedures were not adequate 
to identify all errors which affected the accuracy of the 
review results, but NCA did take quick action and worked with 
us to identify additional errors and discussed our concerns 
with their procedures to adopt stronger procedures to make sure 
they got the results right.
    We still believe NCA needs to take further action as we 
recommended in our report, The Audit of NCA's Internal 
Gravesite Review of Headstone and Marker Placement, to identify 
and prevent future gravesite errors and to insure VA fulfills 
its mission.
    Mr. Chairman, this concludes my statement and we would be 
pleased to answer any questions the Committee may have.

    [The prepared statement of Linda Halliday appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Halliday. My first question kind 
of goes to where you were winding up there. You were here for 
the testimony of Secretary Muro.
    In your written testimony you said that the NCA did take 
action once you identified errors and concerns about their 
procedures. You noted that NCA agreed to implement three 
recommendations that were contained in the 5 July of '12 
memorandum, as well, and it appears to comply with all 
recommendations contained in the VA LIG Report of 7 February of 
'13.
    It seems that NCA has taken additional steps such as 
requiring contractors to insure headstones and markers remain 
at gravesites during their raise and realign projects.
    And you kind of answered this, but I want to get it on the 
record again. In your opinion, have the inaccuracies that the 
Office of the Inspector General found been adequately 
addressed, and at this point has the NCA taken all necessary 
and appropriate steps to rectify the situation?
    Ms. Halliday. I believe the NCA has made a good faith 
effort to address all of the recommendations in our early 
advisory and redo the work to make sure that they got the 
results correct. They reviewed and held those directors where 
their certifications were in question accountable and took the 
actions they needed to move forward to make sure that Phase II 
review got accurate results.
    And I think that from what we have seen in their 
responsiveness, I have some confidence that they will continue 
to update the maps that are relied upon and they are putting in 
new systems that will really help strengthen the whole 
oversight and the way they have their controls in the program.
    Mr. Runyan. So, it is still a work in progress?
    Ms. Halliday. Yes.
    Mr. Runyan. The next question I have is then, throughout 
the OIG's evaluation of the various sites, were the NCA 
employees candid and helpful in the process? And were you 
greeted at the sites with an appropriate manner?
    Ms. Halliday. I am going to let Cherie Palmer answer that.
    Mr. Runyan. Okay.
    Ms. Halliday. Because she and her team actually went to the 
cemeteries. She can give you a firsthand account.
    Ms. Palmer. Mr. Chairman, during our site visits we found 
that the cemetery directors were very cooperative with our 
staff.
    We commented to the Under Secretary on a couple of 
occasions that we had a good working relationship with cemetery 
staff. Yes, I do feel that they were candid.
    In most instances, our contact was limited to the cemetery 
directors and they were cooperative.
    Mr. Runyan. So, not a lot of dealings with staff under that 
and professionalism at that level? Because, obviously, you 
heard some of that in the last panel, that there was some un-
professionalism underneath them.
    Ms. Palmer. Right. We didn't experience that, because the 
Phase I review was conducted by the cemetery directors.
    Mr. Runyan. Thank you.
    Ms. Halliday. Sir?
    Mr. Runyan. Yes.
    Ms. Halliday. Can I add that we did have concerns with the 
three directors that certified there were no errors and then 
our team came behind them and actually identified errors that 
we thought were very visible.
    We were not given good information from each of those 
directors. They just said they don't understand why they didn't 
find those errors. And no one would really say why. It was our 
belief that they didn't do a thorough review. So, if you want 
to assess cooperation, that certainly has to be considered.
    Mr. Runyan. Okay. But post that, the cooperation was there?
    Ms. Halliday. Yes.
    Mr. Runyan. Last question, Ms. Halliday. Going forward, in 
light of your work, what oversight activities would you 
recommend that we do on this Committee?
    Ms. Halliday. I think you have to make sure that you 
require NCA to provide information that their capacity planning 
for future cemeteries is adequate and staying within planned 
milestones and you don't have serious slippage.
    Mr. Runyan. Thank you for that. And with that I recognize 
the Ranking Member Ms. Titus.
    Ms. Titus. Thank you. Sometimes when you say that something 
is a work in progress it is meant with fake praise and you 
really mean it is not happening like it should. But it seems to 
me in this case when you say it is a work in progress that you 
really are making progress and things are being put in place 
and the situation is getting much better fairly rapidly. Is 
that accurate?
    Ms. Halliday. That is accurate. And keep in mind the error 
rates that we detected in this review were extremely low. So, 
there were good results to start with and I do believe by 
invoking stronger procedures when they are doing graveside 
realignment such as headstones cannot be removed from the 
gravesite area while work is being done and having better 
oversight over contractors I think is going to go a long way to 
help things.
    Ms. Titus. I appreciate you saying that. Any mistake is not 
good, it is too many and when the veteran is concerned and the 
family and friends. But if you look at the statistics of how 
many gravesites there are, how far they go back, how poor the 
records must be from 150 years ago, it is pretty remarkable 
that the number of mistakes that you found was as low as it 
was.
    Ms. Halliday. Definitely, especially considering some of 
the maps were so old that they were almost illegible.
    Ms. Titus. And you think the new computer improvements--we 
are always hearing about glitches in computer systems, but the 
new systems improvements are in line to make a difference as 
well?
    Ms. Halliday. I think they are a positive change forward. 
My auditors did spend time examining the current information 
performed extra procedures to look at the information in the 
computer system and then how that translated to the maps and 
how that translated to the actual site conditions. So, I do 
think it is a real positive move forward.
    Ms. Titus. Thank you.
    Mr. Runyan. Mr. O'Rourke.
    Mr. O'Rourke. It is encouraging to hear a good story come 
out of the VA and the effort made initially to understand where 
there might be errors and then the follow up from your office 
to correct that and then the working relationship that you have 
going forward to insure that we don't have these problems in 
the future, so I just want to commend on your efforts and what 
you have been able to do in presenting this to this Committee.
    I guess I have one question on a policy that I guess is 
still being implemented and that is to map through GIS, the 
location of all these gravesites and make sure that information 
is available electronically. Do you have any concerns or 
questions based on what you uncovered through this process in 
terms of how the VA implements that going forward?
    Ms. Halliday. I would have some concerns as far as the 
baseline data integrity of the maps, but I think that is a 
wonderful system and I think it is an appropriate enhancement 
for having realtime information that can support the mission of 
NCA.
    The other thing is, I would like to congratulate Mr. Muro 
because I deal on a regular basis with senior leaders 
throughout VA and when he got the advisory that I issued to him 
about our concerns, there was an immediate phone call and a 
request for help to try to benchmark our procedures against 
what they used to make sure everyone got it right. And I 
commend that as strong leadership.
    Mr. O'Rourke. I appreciate hearing that and the fact that 
you shared that with the Committee and I will just say from 
our--I have only been here on the job for 90 days plus and in 
that short time Mr. Muro's office has been incredibly 
responsive so we join you in commending him. And again, thank 
you for your work. Yield back.
    Mr. Runyan. Thank you, gentlemen, and both of you on behalf 
of the Subcommittee I would like to thank you for your 
testimony and you are now excused and I would like to welcome 
the third panel to the witness table.
    Our third panel will consist of Ms. Zumatto here today 
representing AMVETS and Ms. Neiberger-Miller of the Tragedy 
Assistance Program for Survivors. We appreciate your attendance 
today.
    Your complete written statement will be entered into the 
hearing record and Ms. Zumatto, you are now recognized for five 
minutes for your testimony.

 STATEMENT OF DIANE ZUMATTO, NATIONAL LEGISLATIVE DIRECTOR FOR 
  AMVETS; MS. AMI NEIBERGER-MILLER, DIRECTOR OF OUTREACH AND 
       EDUCATION TRAGEDY ASSISTANCE PROGRAM FOR SURVIVORS

                   STATEMENT OF DIANE ZUMATTO

    Ms. Zumatto. Thank you Chairman Runyan. I am happy to be 
here today to represent AMVETS and our views on the state of 
our national cemeteries.
    In light of the ongoing fiscal challenges facing our Nation 
and the growing demand for VA services, AMVETS calls on 
Congress and the administration to make it their priority to 
insure that the NCA continually receives sufficient, timely, 
and predictable funding.
    It is unfortunate that the administration's funding 
recommendations for VA in FY2014 have been delayed by almost 
two months and AMVETS is greatly concerned about how NCA 
program funding may be impacted going forward.
    Additionally, the ongoing breakdown in the appropriations 
process is a major concern to AMVETS and it will mostly 
certainly have a negative effect on all VA operations.
    In the midst of all the budget and spending woes, AMVETS 
hopes that neither Congress nor the administration forgets the 
sacred obligation they have to those who serve and protect this 
country. Our Nation must remain steadfast and committed to 
insuring that our military, veterans, their eligible family 
members and survivors receive their earned benefits in a timely 
and efficient manner.
    This lifelong commitment begins when an individual raises 
their hand during their enlistment ceremony and while AMVETS 
understands the need to optimize taxpayer dollars, it urges 
Congress not to let the struggle to do more with fewer 
resources interfere with providing our departed servicemembers 
with the highest quality of care as their service to this 
Nation comes to a close.
    A hundred and fifty years ago, President Lincoln promised a 
war weary America that those who had born the battle would be 
honored and never forgotten. It is because of that promise that 
we have our current system of national cemeteries which serve 
as daily reminders to the true cost of freedom.
    The most important obligation of the NCA is to honor the 
memory of America's brave men and women who so selflessly 
served in the United States Armed Forces. Therefore there is no 
more sacrosanct responsibility than the dignified and 
respectful recovery, return and burial of our men and women in 
uniform.
    This responsibility makes it incumbent upon VA to maintain 
our NCA cemeteries as national shrines dedicated to the memory 
of these heroic men and women. As our veterans population 
continues to age and the longest war in the history of our 
Nation winds to a close, VA needs to ensure that the 
development, especially in rural areas and maintenance of our 
national and state veterans' cemeteries meets the growing needs 
of our veterans and their eligible family members.
    AMVETS would like to acknowledge the dedication and 
commitment demonstrated by the NCA leadership and staff in 
their continued devotion to providing the highest quality of 
service to veterans and their families.
    We applaud the NCA for recognizing that it must continue to 
be responsive to the preferences and expectations of the 
veterans community by adapting or adopting new interment 
options and insuring access to burials in national, state and 
tribal government-operated cemeteries.
    AMVETS also believes it is important to recognize the NCA's 
efforts in employing both disabled and homeless veterans, which 
is another area that NCA leads the way among Federal agencies.
    While AMVETS would be the first to acknowledge all the 
great work done by NCA, this does not mean that there are no 
areas needing improvement.
    From October 2011 through March 2012, NCA conducted an 
internal gravesite review of headstone and marker placements at 
national cemeteries and during that review a total of 251 
discrepancies at 93 national cemeteries were uncovered.
    While the incidents were corrected in a respectful, 
professional, and expeditious manner, the initial phase of 
NCA's internal review failed to identify and therefore to 
report all misplaced headstones and unmarked gravesites.
    Additional discrepancies came to light thanks to the 
diligent oversight of Chairman Miller and the HVAC which had 
tasked the IG with conducting an audit of the internal NCA 
review. The IG highlighted several concerns and made corrective 
recommendations.
    Based on those recommendations the Under Secretary from 
Memorial Affairs developed an appropriate action plan and 
AMVETS recommends continued oversight to insure the carrying 
out of all corrective actions.

    [The prepared statement of Diane M. Zumatto appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Zumatto. Ms. Neiberger-Miller, 
you are now recognized for your testimony.

               STATEMENT OF AMI NEIBERGER-MILLER

    Ms. Neiberger-Miller. Thank you, Mr. Chairman. I am pleased 
to submit this testimony on behalf of TAPS, the Tragedy 
Assistance Program for Survivors.
    I am the Director of outreach and education and the 
surviving sister of Army Specialist Christopher Neiberger who 
was killed in action in Iraq.
    TAPS is a non-profit organization that provides comfort and 
care to anyone grieving the death of someone who died while 
serving in the military, regardless of where they died or how 
they died. And we assist the families of veterans who recently 
left the military and died.
    Sadly, in 2012 our organization welcomed 4,807 new 
survivors seeking support in coping with the death of a loved 
one. A nearly 50 percent increase over the previous year.
    We believe that how a Nation cares for those who have 
served in its armed forces and died reflects its commitment to 
honoring their sacrifices.
    Those who oversee the final resting places of our veterans 
are the custodians of a sacred trust, a really valuable trust 
that we, families, place in them.
    Most surviving families that we interact with are very 
pleased with the care that they and their loved ones receive 
from our national cemetery system and at Arlington National 
Cemetery.
    The VA should be commended for undertaking a review of its 
cemeteries after identifying initial problems. Unfortunately, 
this review lacked thoroughness, time, and resources, but these 
problems were addressed and more errors were found and 
corrected.
    When one considers that the VA oversees 3.2 million 
gravesites and 131 cemeteries, the error rate is quite low. But 
even one error is one error too many for our families. And we 
are grateful that VA took the counsel of OIG and strengthened 
its procedures.
    I wanted to bring to the attention of the Committee the 
Corey Shea Act. This act permits a surviving parent to be 
interred with a veteran in a national cemetery if no eligible 
spouse or child exists and the veteran died in action or from a 
training related injury.
    A surviving father recently contacted TAPS because he wants 
to be buried at Santa Fe National Cemetery with his son, Army 
Specialist Vincent Contreras, who died in 2011 while deployed 
in Germany at age 20. Sadly, Mr. Contreras is not eligible 
under the Corey Shea Act for interment because his son died on 
a roadway in an accident and not on the drill field.
    Like Mr. Contreras, other survivors are ineligible under 
the Corey Shea Act for this benefit. We hope the Subcommittee 
will consider expanding eligibility so it is not linked to 
cause or location of death.
    One might think that the VA's waiver request process could 
offer Mr. Contreras and others in his situation relief, but 
unfortunately decisions about waiver requests do not typically 
happen until after the person seeking interment has died.
    As of today, Mr. Contreras would have to die without 
knowing if his request to be buried with his dear son, whom he 
raised as a single parent, could be granted.
    Due to the secretary's recent decision to grant a waiver 
for the interment of a same sex spouse of a veteran in a 
national cemetery, it is reasonable to believe that more 
families may request waivers in the near future.
    Coping with death is difficult enough for families. Dying 
and not knowing if a request to be buried with a loved one can 
be honored adds to the pain that survivors carry. We hope that 
the VA and Arlington will consider changing the waiver 
decision-making process.
    There are other areas where care for survivors could also 
be improved. We recommend that cemetery staff receive 
sensitivity training on working with bereaved families. That 
they pursue professional certifications in bereavement care and 
that they connect with TAPS when emotional issues arise.
    We also recommend that a survivor be appointed to Arlington 
National Cemetery's advisory committee so this important 
stakeholder group feels included.
    We appreciate the Subcommittee's interest in our cemeteries 
at a time when many, if not most Americans feel disconnected 
from the war effort and military service.
    Our national cemeteries and Arlington National Cemetery are 
very public reminders of the price paid for freedom and assure 
us that America has not forgotten the great price paid by our 
loved ones for the country that they loved so very much. Thank 
you.

    [The prepared statement of Ami Neiberger-Miller appears in 
the Appendix]

    Mr. Runyan. Thank you. My first question is for Ms. 
Zumatto. Can you elaborate on the calculations as to why the 
service-connected and non service-connected burial plot 
allowance should be substantially increased?
    Ms. Zumatto. Let me just check my figures here. The problem 
seems to be mainly because the allowance has--the value of the 
benefit has been diminishing over time. Costs have increased, 
there have been changes as far as the amount that is being 
offered for the plot allowance, and it is really not sufficient 
to cover the actual costs of the service.
    It seems to me that last year I had spoken to Under 
Secretary Muro about this and, unfortunately, I can't remember 
the exact number that he had told me the actual cost was. But 
the benefit, the way it is now, doesn't come close to really 
covering it.
    And, you know, originally it covered close to 60 percent--
57 percent, I think and now that amount is much lower. So, we 
just think that it needs to be increased so that it is actually 
much more of a benefit the way the law really intended it when 
it was first implemented.
    Mr. Runyan. When you do get that number could you submit it 
to us so we can put it into the record, please?
    Ms. Zumatto. Sure thing.
    Mr. Runyan. And, Ms. Zumatto, do you believe that overall, 
veterans and their loved ones have benefitted from the NCA 
audit? And, in your opinion, how can NCA continue to improve 
its operations moving forward? Have they benefitted from the 
audit and what can they do to continue to improve?
    Ms. Zumatto. I think, certainly, any time we can uncover 
errors, that is a benefit to, you know, not only those that are 
already interred, but obviously to those who will be seeking a 
place, you know, down the road.
    I think that the GIS system should be a huge benefit to 
minimize these types of errors happening in the future. I think 
the plan that has been agreed upon between the NCA and the IG's 
office, you know, as long as all of those items are 
implemented, I think that, you know, we shouldn't have many 
more problems in the future and that really is the benefit.
    This is something that we count on and if the family 
members, if the veterans themselves don't feel that they have a 
level of comfort or trust for what is going to happen to 
themselves and/or their loved ones, then really that diminishes 
the benefit.
    So, I think as long as they implement the agreed upon fixes 
for the problems that were uncovered that, you know, going 
forward everything should be much smoother.
    Mr. Runyan. Thank you. The other question I have is for Ms. 
Neiberger-Miller. From a TAPS perspective, put a face on what 
it is like for a grieving family to discover a mistake, when 
someone is not properly buried at NCA or Arlington Cemetery. 
Please give the feel for the record.
    Ms. Neiberger-Miller. When we work with a family that has 
encountered an error, whether that is an error on a headstone 
or the unfortunate discovery that their loved one may not be 
where they originally thought, it is viewed by the family as a 
betrayal of trust, because they entrusted their loved one to 
the care of the cemetery at the time of the death.
    And it often becomes a hindrance and a block in terms of 
being able to address their other grief issues in their lives. 
Just because they then are upset and angry, they often, you 
know, if people do not respond well to them when the initial 
concern comes up, if they feel they have not been treated 
honestly or openly or not been listened to, that magnifies the 
problem. And then they are pursuing other solutions and it 
takes a very long time sometimes, often months and years, for 
those families to really, I think, step forward again.
    The things that we can do that really help families, I 
think, are be very up front and honest with them and talk with 
them if something comes up that is a problem, if there is an 
error so that the family is able to get it addressed.
    And one of the things that I observed as well when we 
supported a couple of families through disinterments at 
Arlington in the middle of the scandal was that when their 
loved ones' remains were located and re-interred and they 
received honors again, that was a very healing moment for these 
families who had suffered and being able to provide that really 
made a difference.
    Mr. Runyan. Thank you for putting that real face on the 
pain that a lot of these families suffer. So, with that, I will 
yield to the Ranking Member, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. First, I also want to 
thank you for the assistance you provide and the advocacy that 
you offer for veterans and their families at this very 
difficult time and I would like to ask for your help to work 
with me with Mr. Muro to be sure that we do extend the presence 
of the national cemeteries into those western states, because 
your voice will be very powerful in trying to move that 
forward.
    I just want to ask you, how does a family find you? How do 
they know where to go to get help? And is that process working? 
And then when they find you, are the Web sites or the 
information adequate for you to be able to assist them 
effectively or is there some way we could improve that?
    Ms. Neiberger-Miller. For active duty losses, TAPS has 
memorandums of agreement in place with the armed services and 
so families are actually asked as part of a casualty 
notification process if they would like their information 
forwarded to TAPS and it is explained to them that we are a 
private non-profit, that we are not part of the government, and 
that we provide peer based emotional support for others who are 
grieving the death of someone who served in the military.
    And so many, many families come to us through the MOA 
program. Additionally, families sometimes hear about us through 
the media as well and we often receive calls that way. And we 
also rely on that quite a bit, especially for families of 
recent veterans because there is no formal MOA process that 
helps get those families to us and in particular when we do 
stories with the media that talk about our care for suicide 
survivors, and we have about 3,000 suicide survivors just 
within TAPS.
    We intake, on average, about 13 people per day grieving a 
loss. At least two to four of those will be grieving a suicide 
related loss. And when they hear that we offer care, especially 
in that area, that often does trigger additional calls.
    I mean, we even will put our call center on alert if we 
believe a major news story is going to break, with the 
knowledge that that may mean a large influx of new families.
    Ms. Titus. Maybe our Congressional offices can do things to 
help put the word out about the services that you provide to 
some of those folks who don't hear about you directly.
    Ms. Neiberger-Miller. We would very much appreciate that 
because there are often many people out there who don't know 
about us and even for the families that come through the MOA 
process, the military has on record the primary next of kin for 
the servicemember who died, but there is at least ten people 
impacted by every loss. And the military does not keep a family 
tree on every servicemember, so there is often many other 
people affected who are needing care and support.
    Ms. Titus. Thank you.
    Mr. Runyan. Mr. O'Rourke.
    Mr. O'Rourke. Thank you for your testimony. And I thought 
the recommendations that you made to our Committee are very 
reasonable, very thoughtful recommendations and I noticed that 
Under Secretary Muro is here listening.
    But I echo the other Members of this Committee, if there is 
anything our office can do to be of assistance, either through 
legislation or working with the administration, you know, we 
are here to help and we would be happy to work with you.
    And I would also join Ranking Member Titus in offering our 
office and especially our district office in reaching out to 
the veterans in our community. There are over 80,000 veterans 
served by the VA in El Paso. So, we want to make sure that they 
understand what it is that you do and are able to avail 
themselves of your services and if we can be helpful with that, 
let us know. But thanks, thanks for your testimony.
    Ms. Neiberger-Miller. Thank you.
    Mr. Runyan. Thanks, gentlemen. On behalf of the 
Subcommittee, I would like to thank you both for your 
testimony. I would like to thank everyone for being here today.
    The status reports for our various cemetery representatives 
as well as the audit information and the VSO input was well 
presented and this Subcommittee appreciates the work that went 
into your preparations for today's hearing.
    I look forward to future updates on the initiatives that we 
have heard about today and look forward to working with all of 
you throughout this Congress to insure the final resting places 
of our veterans and their families left behind receive the 
highest standard of care.
    I would like to, once again, thank all of our witnesses for 
being here today. And I ask unanimous consent that all Members 
have five legislative days to revise and extend their remarks 
and include extraneous material. Hearing no objection, so 
ordered.
    I thank the Members for their attendance today and this 
hearing is now adjourned.

    [Whereupon, at 4:05 p.m. the hearing of the Subcommittee 
was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good afternoon and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    We are here today to examine the current state of our military and 
veterans' cemeteries. Our goal in this hearing is to learn more about 
the recent endeavors and accomplishments of the National Cemetery 
Administration and the other organizations that are here today. We are 
also here to address matters of on-going concern that impact all of the 
final resting places of our military servicemembers, veterans, and 
their families, both at home and abroad.
    Members of this Subcommittee, as well as all Members of the House 
Veterans' Affairs Committee, greatly appreciate the incredible feats of 
courage and selfless service that our warfighters have demonstrated 
throughout history.
    Time and time again, America's servicemembers have been called upon 
to put the welfare of our Nation before their own self-interest. Our 
solemn obligation to honor those who have served does not cease at the 
end of their service commitment, retirement, or ultimately, upon death.
    We have a sacred trust to ensure the dignity of the final resting 
places of our military and to honor the memories of America's brave. As 
our senior veterans from World War II and the Korean War decrease in 
numbers, and casualties from Afghanistan return home, our obligation to 
provide honor to every one of the deceased remains acutely felt.
    This hearing will serve to conduct a broad-spectrum review of 
recent cemetery and memorial activities at home and abroad.
    We will be receiving an update on conditions and improvements at 
Arlington National Cemetery. When I first became Chairman of this 
Subcommittee, fixing the problems at Arlington was a top priority and I 
have made it a prime focus of oversight and hearings during my tenure. 
From my first trip to Arlington to meet with Ms. Condon to get an 
overview and take care of a constituent headstone issue, I have seen it 
go from a place where records were kept on library cards in a building 
with no fire suppression to today where everything is digitized and 
there is even a phone App that allows people to know exactly where 
their loved ones are located.
    This Subcommittee's oversight has been made much easier having Ms. 
Kathryn Condon as a partner to work with in improving Arlington. She 
has taken a mismanaged, insular, previously corrupt environment with no 
leadership or structure, and along with her team has transformed ANC 
into what the Army Inspector General described as an organization 
``transitioning from crisis management to sustained excellence.''
    Ms. Condon, I know you are retiring this summer and I want to relay 
our thanks for your dedicated service to our Nation. The way you have 
led your team to turn things around at Arlington has been nothing less 
than extraordinary and it is very important that these best practices 
continue. I want to relay how much my staff and I have appreciated 
working with you to make Arlington the respectful, well-run final 
resting place our Nation's servicemembers deserve.
    We will also be exploring the findings of an internal audit 
conducted by the National Cemetery Administration, or as we refer to 
the organization, the ``NCA,'' as well as the findings of a separate 
audit of the VA Office of Inspector General, which was done in order to 
evaluate the corrective actions taken by NCA.
    Specifically, in October 2011, NCA identified discrepancies at Fort 
Sam Houston National Cemetery during a field test done to verify the 
accuracy of newly formatted gravesite maps. Ultimately, it was 
discovered that a headstone placement error occurred as a result of a 
``raise and realign'' project that had been performed by a contractor.
    Since this discovery, NCA has been working to ensure that all 
gravesite errors are identified and corrected as soon as possible. 
Additionally, at the request of the House Veterans' Affairs Committee, 
the Department of Veterans Affairs, Office of Inspector General, 
conducted an audit to ensure that the corrective actions taken by NCA 
had been fully effective.
    Representatives of these groups will be speaking with us today and 
will offer detail on this issue and the response that has been 
undertaken.
    While we all understand the duty that is owed to those who served 
in uniform, we must also recognize that our responsibility extends to 
the families of these veterans. It is the responsibility of NCA, and 
the other groups here today, to provide a dignified and secure 
environment for the families who visit their loved ones' resting 
places. We must be cognizant that if mistakes are made, the sacred 
trust is compromised and unnecessary trauma and heartache result to our 
military, families, and friends.
    I would like to welcome our witnesses today. These panelists play 
significant roles in ensuring that we as a Nation fulfill our 
responsibilities to honor those who have served us all. We hope that 
through discussions and questioning such as will occur today, we can 
work collectively to not only meet the challenges, but to exceed the 
standard.
    Under Secretary Muro is here on behalf of the National Cemetery 
Administration which oversees 131 cemeteries nationwide.
    Ms. Kathryn Condon is here representing the Army National 
Cemeteries Program, which includes perhaps the most recognizable site 
of our honored fallen in Arlington National Cemetery.
    Deputy Secretary Wollman represents the American Battle Monuments 
Commission whose mission is to serve our country's fallen heroes and 
the missing in action where they have served overseas.
    Next we have Linda Halliday who serves as the Assistant Inspector 
General for Audits and Evaluations at the Department of Veterans 
Affairs, Office of Inspector General and she is accompanied today by 
Ms. Cherie Palmer who is the Director of the Office of Inspector 
General, Chicago Office of Audits and Evaluations.
    We will also be hearing from Diane M. Zumatto, serving as the 
National Legislative Director with AMVETS, as well as Ami Neiberger-
Miller, who is the Director of Outreach and Education with Tragedy 
Assistance Program for Survivors.
    Finally, a Statement for the Record has been received from Ms. Kari 
Cowan, the Surviving Spouse of ``Chief Warrant Officer Three'' Aaron 
William Cowan, of the United States Army. Ms. Cowan was affected by a 
memorial-marker misplacement at the National Memorial Cemetery of the 
Pacific at Punchbowl, in Hawaii.
    With those introductions complete, I am eager to hear of the 
progress that has been made in regards to the National Cemeteries 
corrective actions and I also look forward to hearing from our American 
Battle Monuments Commission, Arlington National Cemetery, and our 
Veterans Service Organizations. Thank you all for being with us today.
    I now yield to our Ranking Member for her opening statement.

                                 <F-dash>
                 Prepared Statement of Hon. Dina Titus
    Thank you, Mr. Chairman, and thank you for holding a hearing on 
this very important topic.
    I also want to thank the witnesses for their attendance this 
morning. I appreciate your flexibility regarding rescheduling this 
hearing.
    It is my belief that a proper burial for our Nation's Veterans is a 
solemn obligation. The National Cemetery Administration has grown 
dramatically since its creation in 1862 when 14 cemeteries were 
established to serve as a permanent resting place for those killed 
during the civil war.
    On July 17 of that year, Congress enacted legislation that 
authorized the President to purchase ``cemetery grounds'' to be used as 
national cemeteries ``for soldiers who shall have died in the service 
of the country.''
    In 1873, all honorably discharged Veterans became eligible for 
burial.
    Since then, NCA has expanded its geographic diversity to better 
serve Veterans across the country and recent legislation has even 
further expanded NCA's reach to rural and urban areas.
    However, while access has grown significantly, there is still a 
very large population of veterans that do not have a nearby national 
cemetery in which to be buried.
    The state of Nevada does not have a national cemetery. This leaves 
over 230,000 veterans without the option of being buried in one of our 
Nation's prestigious national cemeteries within their home state.
    In total, 11 states with a combined Veteran population of 1.8 
million are without an active national cemetery.
    There are 131 National Cemeteries in the United States. New York 
has seven active national cemeteries. Three other states have six 
active national cemeteries, and Puerto Rico has two.
    I look forward to hearing your thoughts on ways to improve access 
to national cemeteries for all veterans, especially those that live in 
states that currently do not have one.
    With that said, I am also well aware of some of the recent 
challenges that the VA has faced in regards to the audits that the 
National Cemetery Administration self-initiated. Though it is always 
disturbing and unacceptable to hear of those instances in which 
Veterans were incorrectly interred, or that the incorrect markers were 
placed, I applaud the VA for taking the initiative to identify the need 
for this review, identifying these issues, and promptly working to 
correct them.
    I also applaud the VA-OIG in working with VA to improve the audit 
process. Most important, is that these instances are identified and 
corrected immediately, allowing loved ones the peace of mind that they 
deserve. I ask that VA continue to conduct these audits on a rolling 
basis, while also identifying quality controls to ensure that these 
mistakes do not happen again, and that the Committee be apprised of 
your findings.
    At the end of March, I sent a letter to Secretary Shinseki 
commending him for allowing the first same sex burial at a national 
cemetery. I was joined by 40 of my colleagues to urge the Secretary to 
grant similar waivers in the future. It is only right that those who 
bravely serve their country should be laid to rest next to the person 
they love.
    Today I also welcome our witnesses from Arlington National Cemetery 
and the American Battle Monuments Commission. I commend the work that 
you do in upholding the sacred trust and look forward to hearing more 
of your insights on how current budget constraints affect your 
missions.
    Lastly, I would like to offer my thanks to Ms. Kari Lin Cowan for 
sharing her troubling story regarding her experiences at National 
Memorial Cemetery, and to Ms. Zumatto and Ms. Neiberger-Miller for 
their work with our veterans and their survivors. I hope that your 
testimony provides the Committee the perspective we need to ensure that 
these facilities are serving our Nations Veterans and their families 
with the kindness, respect and sensitivity that they deserve.
    I yield back.

                                 <F-dash>
                  Prepared Statement of Steve L. Muro
    Chairman Runyan, Ranking Member Titus, and distinguished members of 
the Subcommittee, I am pleased to be here today to share with you 
several recent accomplishments of the National Cemetery Administration 
(NCA). I am accompanied by Glenn Powers, Deputy Under Secretary for 
Field Programs.
    Over the past year we completed our first national Headstone and 
Marker Review of all 3.2 million gravesites, increased our ability to 
meet the burial needs of our Nation's Veterans and Servicemembers, 
enhanced our partnerships with other Federal, state, and tribal 
providers of burial benefits, expanded communications with our funeral 
director stakeholders, and implemented an innovative program to provide 
employment opportunities for homeless Veterans.
    NCA's primary mission is to honor our Veterans and Servicemembers, 
as well as their eligible family members, with final resting places 
that memorialize their service and sacrifice. We are responsible for 
managing the largest cemetery system in the United States. Our 
organization is comprised of 131 VA national cemeteries and 33 
soldiers' lots, burial plots, and monuments. More than 3.7 million 
people, including Veterans of every war and conflict--from the 
Revolutionary War to the war in Iraq and Afghanistan--are memorialized 
by burial in VA's national cemeteries. Since 1973, VA has furnished 
nearly 12 million headstones and markers for the graves of Veterans and 
other eligible persons around the world.
    In Fiscal Year 2012, we conducted over 118,000 interments, 
processed requests for over 355,000 headstones, markers, and 
medallions, and provided nearly 719,000 Presidential Memorial 
Certificates. NCA maintains over 8,600 acres of developed cemetery 
grounds.
    NCA continues to implement the largest expansion of its national 
cemetery system since the Civil War. At present, approximately 90 
percent of the Veteran population--about 20 million Veterans--has 
access to a burial option in a national, state, or tribal Veterans 
cemetery within 75 miles of their homes. Just in 2004, only 75 percent 
of Veterans had such access. This dramatically increased access over 
just 8 years is the result of a comprehensive strategic planning 
process that analyzes the best use of resources to reach the greatest 
number of Veterans, as well as the continued support of the 
Administration and Congress. We are seeing the results of the policy 
decision to lower the threshold for establishing a new national 
cemetery from 170,000 to 80,000 Veterans within a 75 mile radius, which 
has allowed us to close the gap between the populations served by 
national cemeteries and those served by state and tribal Veterans 
cemeteries.
    We established six new national cemeteries since 2009 and are in 
the land-acquisition and planning phases for five additional national 
cemeteries based on our new policy. We have acquired property for three 
of the five new national cemeteries near Omaha, Nebraska, Tallahassee, 
Florida, and Central East Florida. We are moving forward with 
initiatives to meet the unique needs of Veterans in highly rural and 
urban areas. We continue to partner with states and tribes to fund 
construction of Veterans cemeteries in areas where national cemeteries 
do not meet the full demand. Since 2009, 15 new state and tribal 
cemeteries have opened. Taken together, these efforts will allow us to 
attain our strategic target of providing 95 percent of Veterans with a 
burial option within 75 miles of their home by 2015.
    As a complement to the national cemetery system, NCA administers 
the Veterans Cemetery Grant Service (VCGS). There are currently 88 
operational state and tribal cemeteries in 43 states, Guam and Saipan, 
with six more currently under construction. Since 1978, VCGS has 
awarded grants totaling more than $500 million to establish, expand or 
improve Veterans cemeteries. In Fiscal Year 2012, these cemeteries 
conducted over 31,000 burials for Veterans and family members.
    New columbarium-only cemeteries will be constructed in five urban 
locations where the existing national cemetery location has proven to 
be a barrier to burial and visitation. This new Urban Initiative to 
alleviate time and distance barriers is being implemented in New York, 
Los Angeles, San Francisco/Oakland/San Jose, Chicago, and Indianapolis.
    Most recently, the Rural Burial Initiative was launched that will 
provide access for 132,000 Veterans who reside in sparsely populated 
areas where access to a national, state, or tribal Veterans cemetery 
does not exist. National Veterans Burial Grounds may be located within 
or adjacent to existing public or private cemeteries and operated by 
NCA. We are moving forward with implementing the Rural Burial 
Initiative in eight States: Maine, Wisconsin, North Dakota, Montana, 
Wyoming, Nevada, Idaho, and Utah. Six of these sites are in states that 
currently have no VA national cemetery presence and this initiative 
will now allow VA to expand its ability to provide a burial option to 
Veterans, Servicemembers, and eligible family members in these states.
    NCA continues to leverage its partnerships to increase service for 
Veterans and their families. NCA provides Government-furnished 
headstones and markers for all federally-administered cemeteries, 
except the American Battle Monuments Commission. In Fiscal Year 2012, 
NCA was honored to provide over 38,000 headstones and markers to other 
federal and state Veteran cemeteries, including Department of Defense 
(DoD) cemeteries and Department of Interior's National Park Service 
(NPS) national cemeteries. NCA's National Training Center and annual 
conference provide opportunities to share best practices and standards 
among all agencies. NCA manages a congressionally mandated advisory 
committee, on which representatives from ABMC, NPS, and Arlington 
National Cemetery (ANC) are ex officio members. NCA and ANC have 
formalized a working group to ensure the organizations share 
information and collaborate on shared goals.
    NCA works closely with funeral directors and private cemeteries, 
two other significant stakeholder groups. Funeral directors are often 
the spokespersons for the Veteran or next of kin and assist in the 
delivery of NCA services through the coordination of committal services 
and interments. Funeral directors may also help families in applying 
for headstones, markers, and other memorial benefits. NCA partners with 
private cemeteries by furnishing headstones and markers for Veterans' 
gravesites in these private cemeteries. In January of this year, NCA 
announced the availability of a new online funeral directors resource 
kit that may be used by funeral directors nationwide when helping 
Veterans and their families make burial arrangements in VA national 
cemeteries.
    Veterans Service Organizations are key stakeholders and partners in 
the VA mission. These organizations act as a voice for Veterans and 
their families, and as advocates for their needs and expectations. At 
many national cemeteries, they are important partners in providing 
support for military funeral honors, and we value the services they 
provide to our Veterans.
    NCA continues its extraordinary record of customer service. This 
has been underscored by results achieved through external and internal 
survey instruments. NCA received the highest score--94 out of 100 
possible--in the 2010 American Customer Satisfaction Index (ACSI) 
sponsored by the University of Michigan. This is the fourth time NCA 
participated and the fourth time it received the top rating in the 
Nation. NCA was recognized by ACSI for a decade of superlative 
performance. NCA continues to achieve high levels of client 
satisfaction as measured by our annual surveys of Veterans or their 
next of kin who recently selected a national cemetery for the interment 
of a loved one, and the funeral directors who provided assistance at 
their time of need. NCA's 2012 client satisfaction survey results show 
that 99 percent of respondents rate the appearance of national 
cemeteries as excellent and 96 percent rate the quality of service as 
excellent. Ninety-nine percent of respondents would recommend a 
national cemetery to other Veteran families.
    NCA's committed, Veteran-centric workforce is the main reason we 
are able to provide a world-class level of customer service. We 
continue to maintain our commitment to hiring Veterans. Currently, 
Veterans comprise over 74 percent of our workforce. Since 2009, we have 
hired over 400 returning Iraq and Afghanistan Veterans. In addition, 82 
percent of our contracts in Fiscal Year 2012 were awarded to Veteran-
owned and Service-Disabled Veteran-Owned small businesses.
    NCA achieves such high-levels of customer satisfaction because we 
constantly examine our operational processes to ensure efficient and 
accurate benefit delivery. For example, NCA continues to improve 
benefit delivery processes in order to reduce the number of inaccurate 
or damaged headstones and markers delivered to the gravesite. In Fiscal 
Year 2012, 95 percent of all headstones and markers were delivered 
undamaged and correctly inscribed; inscription data for 99 percent of 
headstones and markers ordered by national cemeteries were accurate and 
complete, and nearly 719,000 requests for Presidential Memorial 
Certificates were processed. These certificates bear the President's 
signature and convey to the family of the Veteran the gratitude of the 
Nation for the Veteran's service. To convey this gratitude, it is 
essential that the certificate be accurately inscribed. The accuracy 
rate for inscription of Presidential Memorial Certificates provided by 
VA is consistently 99 percent or better.
    In 2009, NCA assumed responsibility for processing First Notices of 
Death to terminate compensation benefits to deceased Veterans. This now 
allows for the timely notification to next-of-kin of potential survivor 
benefits. Since taking on this responsibility, NCA has advised families 
of the burial benefits available to them, assisted in averting 
overpayments of some $142 million in benefit payments and, thereby, 
helped survivors avoid possible collection actions.
    We are looking to the future needs of our Veterans. This year, we 
plan to survey Veterans about their preferences on emerging burial 
practices, including `green' burial techniques that may be appropriate 
and feasible for planning purposes. The completed study will provide 
information and analysis for leadership consideration of potential new 
burial options.
    NCA's Homeless Veterans Apprenticeship Program, established in 
2012, supports the Department's strategic priority of ending Veteran 
homelessness by 2015. The Apprenticeship is a 1-year paid employment 
training program for Veterans who are homeless or at risk for 
homelessness. This program has created paid employment positions as 
Cemetery Caretakers for 21 homeless Veterans who are enrolled in VA's 
Homeless Veterans Supported Employment programs around the country. 
Apprentices who successfully complete 12 months of competency-based 
training will be offered permanent full time employment at a national 
cemetery. Successful participants will receive a Certificate of 
Competency which can also be used to support employment applications in 
the private sector. The program will be completed at the end of this 
fiscal year and we will be able to better evaluate its success rate as 
the first class graduates in October 2013.
    In addition to these recent accomplishments, NCA completed its 
first system-wide comprehensive review of the entire inventory of 
gravesites within the national cemetery system. It was self-initiated 
with a goal to ensure each headstone and marker was in its proper 
location. It was the first-time in the 150-year history of national 
cemeteries that such a review was undertaken.
    This ambitious and thorough review took many dedicated hours of our 
employees' time and multiple steps to validate the data. NCA leaders 
played a critical role in validating findings and conducted 
statistically-valid sampling of each national cemetery to increase 
assurance in the accuracy of the reported data. The review confirmed 
that the vast majority of work completed during recent ``raise and 
realign'' renovation projects was accomplished accurately and according 
to contract. The information gained was invaluable in validating 
current operations and ensuring we have a clear path forward to 
ensuring a sustainment plan is in place to enhance our management 
practices.
    Out of 3.2 million gravesites, a total of 778 errors were found. 
These errors included 632 gravesites which were identified as mismarked 
and 131 gravesites that were discovered to be unmarked, and up to 15 
sets of remains that NCA determined may require reburial. A mismarked 
grave is one that is marked with a headstone or marker that was 
intended for another grave. An unmarked grave is one with a recorded 
interment which has no headstone or marker. Generally, an unmarked 
grave occurs when a headstone is damaged or removed but not replaced; 
or was intended to be set, but never set for a variety of reasons, for 
example, not ordered or not delivered. While no error is acceptable, 
the total number of errors--less than 800 out of 3.2 million in a 
system that was begun during the Civil War--provides confidence of the 
management practices in place. For those areas that we determined 
weaknesses were present, solutions are being implemented.
    As I committed to doing, we provided our oversight committees with 
updates every 60 days on the status of the review. Throughout the 
process, the next of kin were our priority. I appreciate the oversight 
provided by the full Committee and this Subcommittee on this issue that 
allowed the families to remain everyone's top concern.
    We conducted comprehensive notifications of congressional oversight 
committees and local congressional members. For each error found, 
cemetery directors called the next-of-kin on record and followed up 
with certified letters where we were unable to reach a family member. 
Corrective actions were done in consultation with the families.
    NCA's entire self-initiated review concluded on December 31, 2012. 
The Office of the Inspector General (OIG) also completed an audit of 
Phase I of the review. On February 7, 2013, OIG issued the ``Audit of 
Internal Gravesite Review of Headstone and Marker Placements.'' NCA 
concurred with the findings of the OIG audit of the headstone and 
marker review, and has already adopted many of the recommendations. OIG 
found that NCA's Burial Operations Support System and our records of 
interment were sufficiently reliable for this audit. NCA's experience 
during the headstone and marker review was similar; when mismarked or 
unmarked graves were discovered, NCA was able to determine what 
corrections needed to be made by examining our records of interment and 
comparing them to our gravesite layout plans.
    During its audit, the OIG provided a management advisory letter in 
July 2012 and NCA began implementing recommendations immediately, which 
included an independent review of each cemetery. NCA strengthened the 
Phase II gravesite review procedures based on experience in 
implementing the Phase I headstone and marker review. NCA directed 
Memorial Service Network executive leaders to conduct independent 
gravesite reviews at every national cemetery and soldiers' lot 
administered by VA using statistically-valid sampling of gravesites or 
complete `re-audits.' These independent reviews increased assurance in 
the accuracy of both the Phase I and Phase II headstone and marker 
reviews conducted by the cemetery directors.
    As part of NCA's goal to ensure the accountability of remains, NCA 
leadership has implemented a number of actions to ensure future 
sustainment:

    <bullet>  Additional Reviews. NCA leaders will conduct additional 
full audit reviews at 17 facilities to achieve reasonable assurance 
that all gravesites are accurately marked at those facilities.
    <bullet>  Accountability Procedures. Among the updated April 2011 
procedures are steps designed to alert interment crew members to the 
potential for misaligned markers, either at the interment site or in an 
adjacent row.
    <bullet>  Contractual Requirements. To minimize errors associated 
with ``raise and realign'' projects, contracts for renovation projects 
require the headstones and markers to remain at the gravesite.
    <bullet>  Quality Improvement Initiatives. In October 2012, NCA 
integrated a gravesite validation step in a quality improvement 
process, which requires reviewers to confirm that all markers match the 
arrangement on the gravesite layout map.
    <bullet>  Contracting Officer Representatives. To help ensure 
compliance with contractual requirements, NCA is hiring certified 
contracting officer representatives at each Memorial Service Network 
office to oversee future gravesite renovation projects, additional 
reviews, and to assist in integrating new technologies (GIS/GPS) that 
NCA will leverage in the future.

    To further enhance the accountability of remains, NCA leadership 
will proceed with the following actions:

    <bullet>  Mapping Certification. NCA will establish a certification 
procedure and reporting process ensuring gravesite layout maps are 
routinely updated, accurate, and provided to the cemeteries.
    <bullet>  Leveraging Information Technology. To ensure that future 
headstone and marker reviews are comprehensive, NCA must leverage 
information technology to access VA's extensive historical records of 
interment to automate checks of the match between a gravesite, its 
marker, the record of interment for that gravesite, and the overall 
gravesite layout plan for that cemetery. The Memorial Affairs Redesign 
(MAR) will allow NCA to electronically map a gravesite to the record of 
interment and the layout map for the cemetery. The MAR mapping solution 
will include a Geo-Spatial Information System (GIS) interface that will 
layer the interment data, burial maps, and cemetery engineering 
drawings into a single view allowing a real time comprehensive review 
and analysis of the interment workflow process.

    I am committed to ensuring we move forward on all fronts facing our 
organization. We will implement the actions outlined in the sustainment 
plan that resulted from our headstone and marker review. We will 
continue to expand access to burial options for our Veterans. We have 
and will continue to make progress in opening up the 18 new NCA 
facilities over the next several years and reach more Veterans who are 
currently unserved with a burial option.
    Our National Training Center in St. Louis, Missouri, will continue 
to offer critical competency-based training for our employees. This 
allows us to ensure there will be a new generation of cemetery 
practitioners that are ready to continue the operation and management 
of our system of National Shrines.
    Thank you for the opportunity to appear before you. I look forward 
to answering any questions that you may have.

                                 <F-dash>
                Prepared Statement of Kathryn A. Condon
    Chairman Runyan, Ranking Member Titus and distinguished Members of 
the Subcommittee, thank you for the opportunity to provide an update on 
Arlington National Cemetery and our efforts to sustain the sacred trust 
of our Veterans and Families. We have continued to build upon our 
tremendous progress since my last testimony before this subcommittee a 
year ago. We have implemented processes to better serve our Veterans, 
Families and the public. We are using technology to share the data 
validated through our accountability efforts. We are institutionalizing 
Army processes and procedures to ensure all changes will endure. We are 
also setting the industry standards for best practices while working 
closely with our partner Veterans organizations who I am honored to 
testify with today.
    All at Arlington are committed to constantly improve our 
operations. The pace of requests and burials at Arlington remains at an 
all-time high as we enter our busiest time of the year: the spring and 
summer months. I am concerned that possible Sequestration furloughs 
will severely impact our workforce as we enter this busiest season for 
the Nation's hallowed grounds. Yet, Arlington's workforce remains 
committed to provide our Veterans, Families and visitors the honored, 
solemn experience they deserve.
                    OUR FOUNDATION HAS BEEN RESTORED
    Across all facets of the operation, in less than three years 
Arlington's transformation could not be more striking. We are 
developing and using industry-leading and externally-validated 
standards and auditable business practices. Our newly-trained and 
dedicated workforce is finally using equipment appropriate for the 
rolling hills and high water table of Virginia. With the help of the 
Center of Military History, we have catalogued and are helping restore 
and preserve 44 boxes and 846 folders of maps, pictures and papers 
documenting almost 150 years of Arlington's history. We are 
implementing energy, environmental and sustainability initiatives 
across this inherently Green space: hybrid vehicles, sidewalks of 
recycled materials, earth- and wildlife-friendly landscaping, digital 
read-aheads and briefs, and environmentally-sensitive supplies. Most 
importantly, we remain committed to maintaining the chain-of-custody 
process for all remains, ensuring that a non-negotiable standard of 
accountability is beyond reproach for everyone resting in solemn repose 
at Arlington.
    These improvements at Arlington have been acknowledged in major 
inspections conducted over the past year, including those required by 
and reported to Congress. For instance, the September 2012 Department 
of the Army Inspector General's (DAIG) report, submitted in compliance 
with Public Law 111-339, noted the changes ``have transformed 
(Arlington National Cemetery) and the (Soldiers' and Airmen's Home 
National Cemetery) into premier institutions of excellence capable of 
setting the standards for federal cemeteries across the Nation.'' The 
DAIG concluded Arlington had made ``wholesale improvements across 
Cemetery operations--in gravesite accountability, contracting, 
information and technology, transparency, management, oversight, and 
interaction with Family members and loved ones.''
    Arlington continues to implement recommendations from the 
inspection by the Government Accountability Office (GAO). For instance, 
the U.S. Army Manpower Analysis Agency and Force Management Support 
Agency completed their organizational assessment, which will allow 
Arlington in April to codify a refined organizational structure more 
appropriate for our current and future missions. We have started our 
Organizational Inspection Program, which serves as the basis for 
Arlington to complete self-assessments and others to complete oversight 
inspections of Arlington. We continue to work closely with our partner 
organizations, and have formalized the support relationships with 
Memorandums of Agreement. I have also continued using our strategic 
Campaign Plan to lead, manage and resource change across the 
organization, using the continuously staff-updated metrics and 
milestones. As noted in the GAO report, the Campaign Plan is my key 
planning, synchronizing and resourcing document, helping to ensure 
Arlington maintains standards expected of this national shrine and 
allocate resources for mission achievement, now and for the future.
    As noted also by GAO, Arlington continues to improve its 
acquisition processes and procedures to remain compliant with 
Departments of Army and Defense regulations and guidelines. With 
assistance from the Army Contracting Command and other Army Acquisition 
organizations, we are achieving greater fidelity in our contracting 
management and reporting efforts. Of note, we are using the Electronic 
Defense Automated Requirements Tracking System (eDARTS) to process all 
requirements packages. The eDARTS process has increased our efficiency 
and creates auditable records, helping Arlington ensure it remains a 
responsible steward of all funds provided.
    The Advisory Committee on Arlington National Cemetery, under the 
leadership of the Honorable Max Cleland, continues to provide valuable 
insights and strategic guidance for Arlington's future. Now as a non-
discretionary committee, the Committee endorsed Arlington's efforts to 
pursue designation as an arboretum by the Cemetery's 150th anniversary 
in 2014, helping preserve the cemetery's cultural and natural history. 
The Committee is also helping guide our planning for the commemoration 
of the John F. Kennedy assassination and Arlington burial, monumental 
events for our Nation and Arlington that occurred fifty years ago this 
November.
    The Advisory Committee was also pivotal in our recent renovation of 
our Welcome Center. In coordination with the US Army Center of Military 
History, on Inauguration Weekend we dedicated this improved facility 
that brings to life the honor, history, traditions and events 
associated with our Nation's premier military cemetery. By combining 
Army expertise and ingenuity with Arlington's history and beauty, we 
completed the first major upgrade to the historical displays in over 20 
years.
         Cemetery Expansion and Critical Infrastructure Repair
    The Army is committed to maintaining Arlington as an active 
cemetery for as long as possible for our Nation's military heroes. We 
have three ongoing expansion projects: Columbarium Court 9, the 
Millennium Project and Navy Annex. Once complete, these projects are 
expected to extend Arlington's first interment burials through the 
2050s. In less than two years, we broke ground on the ninth Columbarium 
Court and will hold its dedication ceremony on May ninth. Its 20,296 
niches will extend Arlington's above-ground burial space to 2024. 
Working closely with the Norfolk District of the U.S. Army Corps of 
Engineers, the National Park Service, the Commission of Fine Arts, the 
National Capital Planning Commission, our Advisory Committee, and other 
agencies on the design for Millennium Project, we have reached the 65% 
design point. We are taking great care to create an environmentally-
responsible design, incorporating the area's natural beauty and 
historic nature. With funding requested in the President's FY13 budget, 
we will complete the Millennium Project design and be able to begin 
construction this Fiscal Year. Finally, demolition began on the Navy 
Annex building in November 2012 and is scheduled to be completed by 
August 2013. We continue to work closely with Arlington County, as well 
as our other partners from the Millennium Project, awaiting funding to 
complete the Navy Annex's design.
    As directed by Congress and the Secretary of the Army, we are also 
nearing completion of our new Master Plan, last updated in 1998, and we 
will provide that plan upon its completion. We are coordinating with 
forty federal, District of Columbia, Virginia, Arlington County, and 
non-governmental organizations to complete the Master Plan, which will 
provide us a valuable roadmap to more deliberately manage and request 
resources for these hallowed grounds. Finally, we will soon complete 
our first-ever Integrated Cultural Resources Management Plan (ICRMP). 
In addition to helping Arlington more systematically maintain the 
historic and cultural items already in our care, our efforts to 
complete the ICRMP will start our application to finally be registered 
on the National Register of Historic Places.
    Arlington continues to work diligently to complete the most 
critical repairs to our aging infrastructure. While compiling the 
breadth of our maintenance needs, we used the more than $32.6 million 
recovered from un-liquidated obligations to fund the repairs most 
critical to our health, safety and public outreach missions. For 
instance, we repaired the leaking roof in the Welcome Center for the 
first time since the 1970s and installed its new Heating, Ventilation, 
and Air Conditioning (HVAC) unit, after both had catastrophic failures. 
We replaced over 230,000 square feet of the flagstone walkway at the 
Memorial Amphitheater, improving the beauty and safety of this national 
treasure. We have replaced a small percentage of our antiquated 2-inch, 
6-inch and 16-inch water lines located throughout the cemetery, whose 
almost weekly failures create unsightly geysers and unsafe conditions 
for Families and visitors. We are completing repair of the John F. 
Kennedy Eternal Flame, ensuring this iconic memorial remains 
functional, safe and more energy-efficient for future generations. We 
replaced fire alarm systems across all offices and workspaces at 
Arlington. We are also finishing renovations to our two lodges, 
allowing Arlington's Superintendent to live on-site and increasing our 
available workspace for the additional staff validated by the manpower 
study.
                  Information Technology as an Enabler
    On March 12, 2012, Arlington National Cemetery became the first 
national cemetery to geospatially (digitally) manage cemetery 
operations. Geospatial information system (GIS) technology, coupled 
with the authoritative data we validated during our accountability 
efforts, now form a single, state-of-the-art, authoritative digital ANC 
map. This GIS-based system helps synchronize all phases of our 
operations, from scheduling to headstone placement to authoritative 
documentation. Through these efforts, Arlington has also been able to 
transfer its paper records to the National Archives and Records 
Administration, ahead of the President's Managing Government Records 
Directive.
    Leveraging this technology, on October 22, 2012 we also launched 
ANC Explorer. The first version of this free, web-based application 
allows Families and the public to locate gravesites, events or other 
points of interest throughout the Cemetery; generate front-and-back 
photos of a headstone or monument; and receive directions to these 
locations. We have installed kiosks with ANC Explorer in our Welcome 
Center, and we are also working with industry to field several outdoor 
kiosks throughout the cemetery. Recognized by the Federal Mobile 
Computing Summit as its 2013 ``App of the Year,'' we are already 
working to add and refine the application. Since launching ANC 
Explorer, over 23,150 users have downloaded the application. We have 
also received 452 feedback comments, which are helping inform 
subsequent versions of the application.
    Information Technology (IT) will buttress and help integrate all 
aspects of Arlington's mission in the future. Long-gone are the 
typewriters, 3x5 cards and paper maps: Even our most die-hard paper 
enthusiasts, having worked at Arlington for three decades, now pride 
themselves on the accuracy and efficiency of our geospatial (digital) 
capabilities. To ensure our IT investments enhance and support our 
priority efforts, in May we published our enterprise architecture (EA) 
plan, also completing this GAO recommendation. As with our other 
strategic documents, Arlington remains committed to keeping the EA 
updated to ensure our IT program remains focused and synchronized with 
our desired future state business processes.
                             Accountability
    Establishing gravesite accountability has been at the core of 
Arlington's efforts to sustain the sacred trust with our veterans and 
families. Over the past year we have remained focused on completing the 
authoritative data set of all gravesites at Arlington, validated using 
a transparent and auditable process. The effort has three critical 
parts: 1) Ensuring we have dispositive records that support each 
individual interred or inurned at that location, 2) validating that the 
grave marker is consistent with available records, and 3) verifying the 
marker location is accurately recorded in our GIS system.
    This undertaking required a review of all existing gravesites. Due 
to the complexity and fidelity of historical data, by the end of April 
we expect to complete the final phase of this accountability process. 
As with earlier phases of this baseline accountability effort, the 
authoritative information is added to our GIS system. This system, 
coupled with our existing quality assurance procedures and 
Organizational Inspection Program, will help ensure end-to-end fidelity 
in our operations going forward.
                              WORK REMAINS
    I could not be more proud of the men and women of Arlington who 
have worked diligently to restore the honor and dignity across every 
aspect of this national shrine. And while we have made great strides, 
work remains to improve our service to our Veterans and Families. For 
instance, while Families are willing to wait for burials at Arlington, 
including for an Old Post Chapel service or a specific date, the 
sustained demand for burial services at Arlington has resulted in wait 
times that can be up to six months. We need to improve on keeping pace 
with the average of 220 weekly scheduling requests, which can result in 
hundreds of families with cremated remains waiting to be scheduled. 
This is our top priority and we are making progress in reducing this 
backlog and wait time. We are also working with the Department of the 
Army for hiring freeze exception requests to backfill critical 
positions left open through attrition. Rest assured, reducing wait 
times is now our highest priority issue to fix.
    We are also focusing on our long delay in ordering and placing 
headstones, helping Families bring closure to their loved one's 
passing. Until recently, our cumbersome process to input manually the 
headstone request from within our Army scheduling system to the 
Department of Veterans Affairs (VA) ordering system created a multi-
month lag. Through extended partnering efforts with the VA's Virtual 
Lifetime Electronic Record Program Management Office, last month 
Arlington finally began integrating our headstone ordering within our 
GIS system. Without losing our connectivity with the VA, once fully 
implemented this month, our cemetery personnel will be able to enter 
burial data one time into a single application, which is then used for 
scheduling and conducting the service, ordering the marker, placing the 
marker, and capturing the headstone photo. This will reduce 
dramatically a family's wait to see their loved one's marker in place. 
Using this new system for ordering markers also eliminates errors 
caused by manually entering data into a second application. By April, 
this capability will allow us to eliminate the headstone backlog.
    From a facilities perspective, we must also complete significant 
infrastructure projects to improve the functionality and workplace 
environment. For instance, we have recently replaced three HVAC units, 
yet two additional HVACs in our maintenance area need replacement. Many 
roads are in disrepair and crumbling, creating safety hazards and 
detracting from the national shrine's expected appearance. Over 40,000 
linear feet of waterlines are more than 50 years old. We have replaced 
only the most deteriorated 2,500 linear feet to date. Moving forward, 
we are using our Master Plan and 10-year Capitalization Plan to plan 
and prioritize major repairs and routine maintenance.
       THE IMPACTS OF THE CONTINUING RESOLUTION AND SEQUESTRATION
    As with most Federal organizations, Arlington is facing significant 
fiscal uncertainties. Our fiscal year 2013 President's Budget included 
several critical requests that are not funded under the current 
Continuing Resolution (CR). These requests include the previously 
authorized $25 million for critical infrastructure restoration and 
modernization and $103 million for expansion projects: $84 million to 
begin the Millennium Project construction and $19 million to begin the 
Navy Annex planning and design. In the event of a full year CR for 
FY13, our funding will be reduced to $45.8 million from the requested 
$173.8 million.
    Arlington is also scheduled for a 5% Sequestration decrement, 
further reducing FY13 available funding to $43.5 million, or 
approximately 25% of the original budget request. The potential of 
mandated Sequestration furloughs to Arlington's civilian workforce 
could also severely impact Arlington's ability to serve our Veterans 
and Families in the professional and timely manner expected.
    Furloughs could not come at a worse time for Arlington. 
Historically, April to September is Arlington's peak period of funeral 
and tourist activity. Arlington completes its seven-day a week mission 
with only 142 assigned civilians, already reduced due to the hiring 
freeze. In addition, Arlington's Monday through Saturday burial 
operations must adjust based on weather events--including those working 
outside and those providing direct logistical, technology and 
operational support--making 20% reductions that much more devastating. 
Based on historical burial demand, furloughs will require Arlington to 
reduce the number of burial services it conducts by 35 each week. Forty 
families each week will also not be scheduled for burials, further 
delaying their wait time.
                               CONCLUSION
    Through diligent efforts, adherence to established procedures and 
by leveraging technology, Arlington will do all within its power to 
sustain the sacred trust it has recently reclaimed. Despite the 
challenges the Sequestration presents, the Arlington staff can assure 
the Nation of this: burial services at Arlington will continue to be 
conducted with honor and dignity for our Veterans and their Families.
Executive Summary
    Hearing Subject: To testify on the state of Army National Military 
Cemeteries (ANMC) as part of broader testimony on upkeep and areas for 
improvement by leadership from various Veterans' cemeteries.
    The pace of requests and burials at Arlington National Cemetery 
(ANC) remain at an all-time high. Despite this continued aggressive 
pace, Arlington remains committed to providing Veterans, Families and 
visitors the honored, solemn experience they deserve.

    <bullet>  Broad Scale Transformation: Arlington has developed and 
now is using industry-leading and externally-validated standards and 
auditable business practices. As part of its efforts, ANC has 
catalogued and is helping restore and preserve historically-significant 
maps, pictures and papers documenting almost 150 years of its history. 
Arlington is implementing energy, environmental, and sustainability 
initiatives and continues to improve its acquisition processes and 
procedures to remain compliant with Departments of Army and Defense 
regulations and guidelines. Most importantly, Arlington remains 
committed to maintaining the chain-of-custody process for all remains, 
ensuring that a non-negotiable standard of accountability is beyond 
reproach for everyone resting in solemn repose at Arlington.
    <bullet>  ANC Expansion: ANC has three ongoing expansion projects: 
Columbarium Court 9, the Millennium Project and Navy Annex. Once 
complete, these projects are expected to extend Arlington's first 
interment burials into the 2050s. The Columbarium Court 9 Project will 
add more than 20,000 above-ground burial spaces when it is completed in 
May of this year.
    <bullet>  Information Technology: On March 12th, 2012 ANC became 
the first national cemetery to geospatially (digitally) manage cemetery 
operations. This GIS-based system helps synchronize all phases of ANC's 
operations, from scheduling to headstone placement to authoritative 
documentation. Through these efforts, Arlington has also transferred 
its paper records to digital format. In October 22, 2012 ANC launched 
ANC Explorer, the free web-based application which allows Families and 
the public to locate gravesites, events or other points of interest 
throughout the Cemetery; generate front-and-back photos of a headstone 
or monument; and receive directions to these locations.
    <bullet>  Accountability: Over the past year, ANC has remained 
focused on completing the authoritative data set of all gravesites, 
validated using a transparent and auditable process, which includes 
three critical parts: 1) Ensuring there are dispositive records that 
support each individual interred or inurned at that location, 2) 
validating that the grave marker is consistent with available records, 
and 3) verifying the marker location is accurately recorded in the GIS 
system.
    <bullet>  Sequestration / Continuing Resolution Impact: Furloughs 
could not come at a worse time for ANC. Historically, April to 
September is the peak period for funeral and tourist activity. Based on 
historical burial demand, furloughs will require Arlington to reduce 
the number of burial services it conducts by 35 each week. Forty 
families each week will also not be scheduled for burials, further 
delaying their wait time.

                                 <F-dash>
                Prepared Statement of Raymond J. Wollman
Introduction
    Mr. Chairman and Members of the Subcommittee . . .
    Thank you for this opportunity to discuss the mission, operations 
and programs of the American Battle Monuments Commission (ABMC).
    I begin with a statement that serves as the foundational vision for 
all that we do:

    Time will not dim the glory of their deeds

    These words of our first chairman, General of the Armies John J. 
Pershing, speak eloquently to the Commission's purpose since its 
creation in 1923--to honor our Nation's fallen overseas, at sites 
entrusted to our care by the American people.
    ABMC's core mission is commemoration - honoring service and 
sacrifice by maintaining magnificent shrines to our Nation's war dead 
and preserving their stories so that the glory of their deeds is not 
diminished by the passage of time.
    We execute our mission by maintaining commemorative sites to an 
unparalleled standard of excellence, and by providing historical 
context for why our monuments and cemeteries were established, why 
those memorialized within them died, and the values for which they 
died.
Telling Their Story
    Maintaining our monuments and cemeteries is our core mission and 
top priority. But we also have a responsibility to tell the stories of 
those we honor.
HONOLULU MEMORIAL
    On November 11, 2012, during the Veterans Day Ceremony at the 
National Memorial Cemetery of the Pacific - the Punchbowl - ABMC 
dedicated Vietnam Battle Maps that now complete the story told at our 
Honolulu Memorial. While the cemetery is maintained by the Department 
of Veterans Affairs, the Honolulu Memorial is one of the 25 memorials 
that ABMC maintains worldwide.
    When the memorial was built in the 1960s, it included Battle Maps 
and Courts of the Missing commemorating World War II in the Pacific and 
the Korean War. In the 1980's, while our Secretary Max Cleland was 
serving as the Administrator of the Veterans Administration, he asked 
ABMC to add Vietnam War Courts of the Missing to the memorial. ABMC 
honored this request, but battle maps commemorating the war were not 
part of that project.
    That oversight is now corrected, and those Americans who served 
during the Vietnam War are appropriately honored at our most visited 
memorial. We believe this is the only memorial tribute to our Vietnam 
veterans paid for with Federal funds.
    The message of the memorial is expressed in the haunting words of 
the poet Archibald MacLeish, words now inscribed on the outside stone 
face of the Vietnam Pavilion:

                        We Leave You Our Deaths
                        Give Them Their Meaning

    The Vietnam Battle Maps are just part of the extensive restoration 
and renovation work completed and planned at the Honolulu Memorial. 
With 2010 and 2011 funding we added lifts to make all of the Courts of 
the Missing accessible, and additional renovation and repair was funded 
in 2012 and is planned for 2013.
VISITOR CENTER PROJECTS
    In Europe, we have three visitor center projects under 
construction: at Cambridge American Cemetery in England, at Sicily-Rome 
American Cemetery in Italy, and at the Pointe du Hoc Ranger Monument in 
France. All will be completed this year, enhancing the visitor 
experience at these sites.
    We recognize our responsibility to program our interpretive efforts 
to fiscal and visitation realities. None of these three sites have the 
visitation of Normandy American Cemetery, which receives one million 
visitors annually. But Pointe du Hoc receives nearly 500,000 visitors a 
year, benefiting from its proximity to Normandy; likewise, the 
proximity of Cambridge and Sicily-Rome to major tourism cities provides 
visitation growth potential that their new visitor centers can capture.
WEBSITE AND MOBILE APPS
    Most of our cemeteries, however, receive far fewer visitors. To 
better tell their stories to a broader audience we have been turning to 
technology.
    Our first mobile app--a tour of the Pointe du Hoc battlefield--was 
released in December; a web version should be launched this month. Our 
long-term objective is to produce apps and virtual tours for all of our 
sites, so we can bring these national historic assets to life on our 
website and in our classrooms.
    Our website is undergoing a complete redesign, with more robust 
educational resources planned. We expect to go live with the new 
website by Memorial Day.
    Concurrently, we are working to form partnerships with the 
education community. Our objective is to develop curricula that matches 
content based on military campaigns to core standards used in our 
school systems - all in keeping with our foundational vision that 
``Time Will Not Dim the Glory of Their Deeds.'' With the approaching 
Centennial of World War I, our initial focus will be on World War I 
curricula.
Pacific Memorials
    Turning to the Pacific, there are several projects underway that 
deserve mention.
UN CEMETERY MEMORIAL IN KOREA
    The only United Nations cemetery in the world is located in Pusan, 
Korea. Eleven countries have members of their armed forces interred at 
the cemetery, including the United States. Most of those nations have 
memorials in the cemetery honoring their armed forces--the U.S. does 
not. We are fixing that.
    Last fall, the design of the new monument was approved. We will 
begin construction this spring and plan to dedicate the monument in 
July on the 60th Anniversary of the signing of the Korean War 
armistice. It will be a long overdue tribute to those Americans who 
fought and died during ``the forgotten war,'' built on land they helped 
defend.
THE PHILIPPINES
    We have a long term plan to bring Manila American Cemetery and the 
Pacific Memorials up to ABMC standards. Master plans for the cemetery 
and four memorials are complete and under review. With fiscal year 2013 
funding, we are addressing encroachment issues at the cemetery and 
renovating the Cabanatuan Memorial.
    To protect the cemetery and address security concerns, the 
Commission is replacing the current chain link fence, which defines the 
border, with a robust perimeter wall. Unless marked by a substantial 
``permanent'' wall, local culture ascribes a ``temporary'' definition 
to the boundary that will continue to subject our commemorative site to 
degradation by such intrusions as local highway projects, development, 
and squatters.
    The memorial at the site of the Cabanatuan Prison Camp honors those 
who died during internment in the Second World War. The Commission 
accepted responsibility for its operation and maintenance in 1989. The 
renovation includes replacing and upgrading cladding materials, 
addressing deficiencies in the memorial text, and making site 
improvements.
WEST COAST MEMORIAL
    The West Coast Memorial on the grounds of the Presidio overlooking 
the entrance to San Francisco Bay was erected in memory of those who 
died in the American coastal waters of the Pacific Ocean during World 
War II. A project to address Americans with Disabilities Act upgrades 
and landscaping improvements is underway and should be completed by 
Memorial Day.
Clark Cemetery
    Public Law 112-260, the Dignified Burial and Other Veterans' 
Benefits Improvement Act of 2012, authorizes ABMC to restore, operate 
and maintain Clark Veterans Cemetery in the Philippines. As required by 
law, the U.S. Government is negotiating an agreement with the 
Philippine Government to allow ABMC to begin maintaining the cemetery.
    If and when such an agreement is reached, we intend to use existing 
funds to----

    - begin minimum maintenance with crew from our Manila cemetery, 
about an hour from Clark, and
    - contract for a full assessment of the site to determine 
restoration and annual maintenance requirements.

    The Congress authorized $5 million for restoration and amounts 
necessary to operate and maintain the cemetery. This may be 
insufficient for a cemetery that is partially covered in volcanic ash 
and may have other unknown infrastructure issues. However, we have no 
prior involvement at this cemetery, so we are not able to estimate the 
true costs until we complete a comprehensive site assessment.
    We again applaud the dedicated efforts of U.S. veterans in the 
Philippines who have been maintaining Clark cemetery for many years. 
The mission has now been assigned to ABMC. We will work toward 
executing that mission when an agreement allowing us to do so has been 
reached with the Philippine Government.
Fiscal Year 2013 Funding
    ABMC's total budget authority for FY 2013 is $73.37 million, a 
$230,000 decrease from our FY 2013 budget request level. The $73 
million takes into account funding provided under the Consolidated and 
Further Continuing Appropriations Act, 2013 (P.L. 113-6) and the March 
1, 2013 sequestration order.
    Our mission is to ensure that our commemorative cemeteries and 
memorials remain fitting shrines to those who have served our Nation. 
In meeting the requirements of sequestration and the rescission, the 
Commission is not planning to furlough staff - staff that maintains our 
cemeteries to the highest standards that reflect this Nation's core 
values - staff that keeps our grass green and our headstones white. The 
reduction will come from areas with the least impact on cemetery 
operations.
Conclusion
    The essence of the Commission's mission success does not change 
from year to year: keep the headstones white; keep the grass green; and 
tell the story of those we honor.
    With the support of the Administration and the Congress, we will 
continue to ensure that the Commission's overseas shrines to American 
service and sacrifice remain unparalleled in their beauty, reflecting 
our Nation's willingness to sacrifice to protect our freedoms and the 
freedoms of others, and our Nation's commitment to honoring those who 
made that sacrifice on our behalf.
    Mr. Chairman, Members of the Subcommittee, as always we invite you 
to visit these inspirational sites during your overseas travels. You 
will never forget the experience.
    Thank you for allowing me to present this summary of our mission, 
operations and programs.
Executive Summary
Telling Their Story
    Honolulu Memorial at the National Memorial Cemetery of the Pacific

    <bullet>  November 11, 2012, Veterans Day, ABMC dedicated Vietnam 
Battle Maps
    <bullet>  Additional restoration and renovation work completed and 
planned

Visitor Center Projects
    <bullet>  3 visitor center projects under construction:
    <bullet>  Cambridge American Cemetery in England
    <bullet>  Sicily-Rome American Cemetery in Italy
    <bullet>  Pointe du Hoc Ranger Monument in France
    <bullet>  All will be completed this year, enhancing the visitor 
experience at these sites
Website and Mobile Apps
    <bullet>  1st mobile app--a tour of the Pointe du Hoc battlefield--
released; web version due later in March
    <bullet>  Objective is to produce apps and virtual tours for all of 
ABMC sites
    <bullet>  Website is undergoing a complete redesign, expect to go 
live by Memorial Day
    <bullet>  Partnerships with the education community to develop 
curricula
Pacific Memorials
    <bullet>  UN Cemetery Memorial in Korea

    - Design of the new monument was approved
    - Begin construction this spring and dedication planned for July, 
60th Anniversary of the armistice

    <bullet>  The Philippines

    - Master plans complete and under review
    - Addressing encroachment issues at cemetery and renovating the 
Cabanatuan Memorial in FY 2013

    <bullet>  West Coast Memorial

    - Americans with Disabilities Act upgrades and landscaping 
improvements
Clark Cemetery
    <bullet>  Negotiations underway to allow ABMC to begin maintaining 
the cemetery
    <bullet>  If and when such an agreement is reached, ABMC intends 
to:

    - begin minimum maintenance
    - fund assessment to determine restoration/maintenance requirements
Fiscal Year 2013
    <bullet>  ABMC's total FY 2013 budget authority is $73.37 million
    <bullet>  Includes funding provided by Consolidated and Further 
Continuing Appropriations Act, 2013 (P.L. 113-6) and the March 1, 2013 
sequestration order
    <bullet>  $230,000 decrease from the FY 2013 budget request level
    <bullet>  No planned furloughs

                                 <F-dash>
                Prepared Statement of Linda A. Halliday
INTRODUCTION
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to discuss the issues related to the National Cemetery 
Administration's (NCA) internal gravesite reviews that were identified 
in an Office of Inspector General (OIG) audit report, Audit of NCA's 
Internal Gravesite Review of Headstone and Marker Placement, issued 
February 7, 2013. I am accompanied by Ms. Cherie Palmer, Director, OIG 
Chicago Audit Operations Division, who directed the preparation of the 
report.
BACKGROUND
    NCA's mission is to honor veterans and their families with final 
resting places in National shrines and with lasting tributes that 
commemorate their service to our Nation. NCA is responsible for 
maintaining approximately 3.2 million gravesites at 131 National 
cemeteries in 39 states and Puerto Rico and 33 soldiers' lots and 
monuments. In fiscal year 2012, NCA conducted approximately 118,000 
interments and processed about 355,000 applications for headstones and 
markers for placement in cemeteries. NCA's cemeteries are organized 
under five Memorial Service Networks (MSNs). The network provides 
direction, operational oversight, and engineering assistance to the 
cemeteries located in their geographic areas.
    NCA conducts major renovation projects to raise and realign 
headstones and markers to ensure they are maintained at proper height 
and alignment. These projects are critical to NCA's ability to meet its 
National Shrine standards and, more importantly, to honor veterans. NCA 
uses its employees and contractors when conducting raise and realign 
projects.
    In October 2011, NCA directed MSN directors and cemetery directors 
to conduct a review to verify headstone and marker placement in all 
burial sections where raise and realign projects were completed. This 
review included a requirement for cemetery directors to certify the 
accuracy of their review results. NCA self-initiated the review in 
August 2011 following the discovery of 47 markers that were offset by 
one gravesite in a burial section at Fort Sam Houston National Cemetery 
in San Antonio, Texas. This resulted in placing the remains of four 
decedents into the wrong gravesites.
    NCA's independent gravesite review was conducted in two phases. 
Phase One reviewed burial sections where raise and realign projects 
were completed and Phase Two reviewed the remaining burial sections at 
those cemeteries as well as cemeteries that did not undergo 
renovations. Our work examined NCA's Phase One review results. We did 
not review NCA's results for Phase Two.
OIG WORK
    Our audit was conducted to determine whether NCA adequately 
identified and addressed issues found during its Phase One review. In 
this phase, NCA reviewed nearly 1.6 million of approximately 3.1 
million gravesites at 93 National cemeteries and identified 251 
gravesite errors at 13 of 93 National cemeteries. Initially NCA 
reported 218 misplaced headstones, 25 unmarked gravesites, and 8 
misplaced veteran remains. NCA notified congressional committees, 
contacted next of kin where possible, and implemented corrective action 
plans once MSN staff verified the errors.
    We found Phase One review procedures did not identify and report 
all misplaced headstones and unmarked gravesites. While NCA reviewed 
all gravesites that were raised and realigned, we conducted a sample of 
200 gravesites at 12 National cemeteries to ensure headstones were 
accurately placed. After completing a review of the 12 National 
cemeteries, we identified 7 additional misplaced headstones and 
unmarked gravesites (see Table 1). We determined that NCA's procedures:

    <bullet>  Lacked controls to ensure independence - Independent 
reviews increase objectivity and provide impartial judgment associated 
with conducting and reporting results. However, NCA limited the review 
process to the cemetery or the acting cemetery director.
    <bullet>  Did not provide adequate time and resources to conduct a 
national review of this magnitude - NCA did not provide sufficient time 
and resources needed to conduct the reviews. NCA planned the reviews 
without considering the size, complexity, and age of the cemeteries. 
Cemetery directors reviewed a range of 2,700 to nearly 124,000 
gravesites for the 12 cemeteries we visited. NCA's October 2011 policy 
memorandum instructed each cemetery director or acting cemetery 
director to complete the review and certify the accuracy of the results 
in 78 days, from October 14, 2011, through December 31, 2011, without 
considering cemetery size. Cemetery staff at nearly every site we 
visited told us that completing the review concurrently with continuing 
standard cemetery operations proved challenging.
    <bullet>  Did not provide updated gravesite layout maps to cemetery 
directors - MSNs did not provide cemetery directors with updated and 
accurate gravesite layout maps. These maps reflect interment usage of 
gravesites and memorial sites. Cemetery directors' are responsible for 
ensuring gravesite layout maps are maintained and updated daily and 
updates are provided to the appropriate MSN staff at least semi-
annually. However, gravesite layout maps used to conduct the review at 
4 of 12 cemeteries we visited were not accurate.

    At one cemetery, the gravesite layout maps were illegible and were 
not updated since 1970. At another cemetery we observed four rows of 
headstones that were not included on the map used by the cemetery 
director to conduct the review. In addition, a cemetery director told 
us the updated maps received from the MSN do not always include all the 
updates provided by the cemetery. This resulted in reliance on 
inaccurate gravesite layout maps. We found discrepancies when using the 
maps to conduct our reviews. For example, maps showed reserved 
gravesites when the burial space was occupied; obstructed gravesites 
when the burial space was occupied; duplicate gravesites; and maps did 
not include all gravesites.
    As stated earlier, this review included a requirement for cemetery 
directors to certify the accuracy of their review results. When we 
identified additional gravesite errors that were not reported in 
cemetery directors' required certifications, we questioned the validity 
of the directors' certifications. For example, two cemetery directors 
certified that they found no errors, yet we identified three at one 
location and two at the other. When we asked why the error was not 
identified during the initial Phase One review, the directors could not 
explain why it was not reported.
    In July 2012, we issued a Management Advisory Memorandum to the 
Under Secretary for Memorial Affairs because we were concerned that the 
Phase One internal gravesite review procedures did not identify and 
report all misplaced headstones and unmarked gravesites. We recommended 
NCA revise current internal gravesite review procedures to ensure the 
accuracy of gravesite reviews and reporting of results; secondly, that 
NCA plan and complete another review of all Phase One and Two National 
cemeteries using revised procedures; and finally, that NCA research the 
reasons the Directors' certifications did not disclose the same 
conditions we identified and take administrative action as deemed 
appropriate.
    In response to our Management Advisory Memorandum, NCA revised 
their procedures and tested them at 9 of the 12 cemeteries that we 
visited or planned to visit during our audit. They used independent 
teams to conduct these follow-up reviews instead of relying solely on 
the cemetery director. Using the revised procedures at 9 cemeteries, 
NCA identified 146 additional gravesite errors at 4 cemeteries compared 
to initially identifying a total of 251 errors during Phase One (see 
Table 2). We have also been told by NCA officials that they have 
completed their reviews of why Directors' certifications did not 
identify all errors, and that one director has been reassigned to other 
duties.
    In response to our report recommendations, the Under Secretary for 
Memorial Affairs agreed to and provided an appropriate action plan to:

    <bullet>  Implement the three recommendations in the July 5, 2012, 
Management Advisory Memorandum.
    <bullet>  Take corrective actions regarding the additional errors 
identified in the audit report, including the notification of 
congressional committees and contacting families when possible.
    <bullet>  Implement procedures to assess cemetery size and cemetery 
director responsibility to ensure adequate time and resources are 
available before conducting future gravesite reviews.
    <bullet>  Implement controls, including a certification, to ensure 
gravesite layout maps are routinely updated, accurate, and provided to 
the cemeteries.

    In addition, NCA reported implementing corrective actions such as 
requiring contractors to ensure headstones and markers remain at 
gravesites during raise and realign projects. Previously, headstones 
may have been removed from the site during raise and realign projects.
CONCLUSION
    NCA's internal gravesite review procedures were not adequate to 
identify all errors, which affected the validity and accuracy of the 
review. Consequently, NCA reported unreliable and understated results 
to Congress in March 2012 following the completion of the Phase One 
review. NCA did take action once we identified additional errors and 
concerns about their procedures. However, NCA needs to take further 
actions as recommended in our report to identify and prevent gravesite 
errors to ensure VA properly fulfills its mission.
    Mr. Chairman, this concludes my statement. We would be pleased to 
answer any questions that you or other Members of the Subcommittee may 
have.

                                                     TABLE 1
                                   Gravesite Errors Identified by NCA and OIG
----------------------------------------------------------------------------------------------------------------
                                          Gravesites Reviewed by   Errors Identified by    Errors Identified by
     MSN           National Cemetery                NCA                     NCA                     OIG
----------------------------------------------------------------------------------------------------------------
           1           Philadelphia. PA                  11,041                      13                       1
----------------------------------------------------------------------------------------------------------------
           1             Winchester, VA                   5,097                       -                       3
----------------------------------------------------------------------------------------------------------------
           2               Bay Pines, FL                 27,304                       -                       -
----------------------------------------------------------------------------------------------------------------
           2              Beaufort , SC                  17,410                       4                       -
----------------------------------------------------------------------------------------------------------------
           2               Marietta, GA                  16,960                       -                       -
----------------------------------------------------------------------------------------------------------------
           3                      Fort Logan, CO         62,741                       -                       -
----------------------------------------------------------------------------------------------------------------
           3               Santa Fe, NM                  32,322                      13                       -
----------------------------------------------------------------------------------------------------------------
           4     Jefferson Barracks, MO                 123,851                       -                       -
----------------------------------------------------------------------------------------------------------------
           4                   Wood, WI                  25,531                       -                       2
----------------------------------------------------------------------------------------------------------------
           4         Zachary Taylor, KY                  10,655                       -                       -
----------------------------------------------------------------------------------------------------------------
           5              Riverside, CA                  37,711                       1                       1
----------------------------------------------------------------------------------------------------------------
           5               Roseburg, OR                   2,723                       -                       -
----------------------------------------------------------------------------------------------------------------
                                  Total                 373,346                      31                       7
----------------------------------------------------------------------------------------------------------------


                                                     TABLE 2
                            Results of Subsequent Additional Errors Identified by NCA
----------------------------------------------------------------------------------------------------------------
        MSN                 National Cemetery            MSN Gravesites Reviewed      Errors Identified by MSN
----------------------------------------------------------------------------------------------------------------
              1                   Winchester, VA                         5,097                            60
----------------------------------------------------------------------------------------------------------------
              5                    Riverside, CA                           400                            52
----------------------------------------------------------------------------------------------------------------
              4                         Wood, WI                        25,531                            32
----------------------------------------------------------------------------------------------------------------
              1                 Philadelphia, PA                        11,041                             2
----------------------------------------------------------------------------------------------------------------
                                            TOTAL                       42,069                           146
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>
                 Prepared Statement of Diane M. Zumatto
    Chairman Runyan and Ranking Minority Member Titus and distinguished 
members of the subcommittee, as an author of The Independent Budget 
(IB) with responsibility for the NCA, I thank you for this opportunity 
to share with you AMVETS' views on the state of our National 
Cemeteries.
    The most important obligation of the NCA is to honor the memory of 
America's brave men and women who have so selflessly served in the 
United States armed forces. Therefore there is no more sacrosanct 
responsibility than the dignified and respectful recovery, return and 
burial of our men and women in uniform. This responsibility makes it 
incumbent upon NCA to maintain our NCA cemeteries as national shrines 
dedicated to the memory of these heroic men and women.
    Unfortunately, more often than not, our National Cemeteries, many 
of which are richly steeped in history and containing historic 
architecture, monuments, markers, landscapes and related memorial 
tributes, are under-valued and unappreciated by the majority of 
Americans. These venerable commemorative spaces are part of America's 
historic material culture; they are museums of art and American 
history; they are fields of honor and hallowed grounds and they deserve 
our most respectful stewardship.
    The Department of Veterans' Affairs (VA) National Cemetery 
Administration (NCA) maintains 131 of the nation's 147 national 
cemeteries, as well as 33 soldiers' lots. The 131 NCA operated 
cemeteries are composed of approximately 3.1 million gravesites and are 
located in 39 states and Puerto Rico. As of late 2011, there were more 
than 20,191 acres within established installations in the NCA. Nearly 
60 percent are yet to be developed and hold the potential to provide 
approximately 5.6 million more gravesites, composed of 5 million casket 
sites and nearly 601,000 in-ground cremation sites. Of these 131 
national cemeteries, 72 are open to all interments, 18 can accommodate 
cremated remains only, and 41 perform only interments of family members 
in the same gravesite as a previously deceased family member.
    VA estimates that approximately 22.2 million veterans are alive 
today, and with the transition of an additional 215,000 service members 
into veteran status over the next 12 months, this number is expected to 
continue to increase until approximately 2016 at which point It will 
begin declining for the next few years. These veterans have served in 
World War II, the Korean War, the Vietnam War, the Gulf War, Operation 
Enduring Freedom, Operation Iraqi Freedom, Operation New Dawn, and 
hostile conflicts around the world as well as during times of peace. On 
average, 15.2 percent of veterans choose to be laid to rest in a 
national or state veterans' cemetery. As new national and state 
Veterans cemeteries open, this percentage is expected to increase. In 
addition, NCA plans to further increase access for rural Veterans by 
establishing National Veterans Burial Grounds in existing public or 
private cemeteries in eight sparsely populated rural locations across 
the country.
    Out of the 117,400 interments conducted in FY 2011, 65.5 percent 
were in the 20 busiest national cemeteries: Riverside, CA.; Florida 
National; Calverton, NY.; Fort Snelling, MN.; Jefferson Barracks, MO.; 
Fort Logan, CO.; Fort Sam Houston, TX; Willamette, OR.; Dallas-Fort 
Worth, TX; Fort Rosecrans, CA.; National Memorial Cemetery of Arizona; 
Abraham Lincoln, IL.; Tahoma, WA.; Houston, TX; Great Lakes, MI.; 
Sacramento Valley, CA.; Massachusetts; South Florida; Ohio Western 
Reserve; and Indiantown Gap, PA.
    As of Sept. 30, 2011, eight national cemeteries each contained more 
than 100,000 occupied gravesites, collectively accounting for 39 
percent of all NCA gravesites maintained: Long Island, N.Y.; Calverton, 
N.Y.; Riverside, Calif.; Fort Snelling, Minn.; Jefferson Barracks, Mo.; 
Willamette, Ore.; Golden Gate, Calif.; and Fort Sam Houston, Texas.
    VA estimates that approximately 22.4 million veterans are alive 
today and with the transition of an additional 1 million service 
members into veteran status over the next 12 months, this number is 
expected to continue to rise until approximately 2017. On average, 14.4 
percent of veterans choose a national or state veterans' cemetery as 
their final resting place. As new national and state cemeteries 
continue to open and as our aging veterans' population continues to 
grow, we continue to be a nation at war on multiple fronts. There is no 
doubt that the demand for burial at veterans' cemeteries will continue 
to increase.
    AMVETS would like to acknowledge the dedication and commitment 
demonstrated by the NCA leadership and staff in their continued 
devotion to providing the highest quality of service to veterans and 
their families. It is the opinion of AMVETS that the NCA continues to 
meet its goals and the goals set forth by others because of its true 
dedication and care for honoring the memories of the men and women who 
have so selflessly served our nation. We applaud the NCA for 
recognizing that it must continue to be responsive to the preferences 
and expectations of the veterans' community by adapting or adopting new 
interment options and ensuring access to burial options in the 
national, state and tribal government-operated cemeteries.
    One of the areas that NCA does a good job in is forcasting the 
future needs of our veterans by:

    <bullet>  securing land for additional cemeteries, including two 
new national cemeteries in Florida and working in CO & NY;
    <bullet>  getting the word out on burial benefits to stakeholders. 
Including developing new online resources for Funeral Directors;
    <bullet>  making it easier for family members to locate and 
chronicle loved ones by partnering with Ancestry.com to Index historic 
burial records. This partnership will bring burial records from 
historic national cemetery ledgers (predominantly of Civil War 
interments) into the digital age making them available to researchers 
and those undertaking historical and genealogical research. From the 
1860s until the mid-20th century, U.S. Army personnel tracked national 
cemetery burials in hand-written burial ledgers or ``registers.'' Due 
to concern for the fragile documents and a desire to expand public 
access to the ledger contents, VA's National Cemetery Administration 
(NCA) duplicated about 60 hand-written ledgers representing 36 
cemeteries using a high-resolution scanning process. The effort 
resulted in high quality digital files that reproduced approximately 
9,344 pages and 113,097 individual records. NCA then transferred the 
original ledgers to the National Archives and Records Administration 
(NARA) where they will be preserved. In addition to the NCA's ledgers, 
NARA was already the steward of at least 156 military cemetery ledgers 
transferred from the Army years ago.
    <bullet>  awarding grant money for State and Tribal Veterans 
Cemeteries; and
    <bullet>  expanding burial options in rural areas - The Rural 
Initiative. This program provides full burial services to small rural 
Veteran populations where there is no available burial option from 
either a VA national, State or Tribal Veterans cemetery. This 
initiative will build small National Veterans Burial Grounds in rural 
areas where the unserved Veteran population is less than 25,000 within 
a 75-mile radius. VA's current policy for establishing new national 
cemeteries is to build where the unserved Veteran population is 80,000 
or more within a 75-mile radius.
    A National Veterans Burial Ground will be a small three to five 
acre NCA-managed section within an existing public or private cemetery. 
NCA will provide a full range of burial options and control the 
operation and maintenance of these lots. These sections will be held to 
the same National Shrine Standards as VA national cemeteries. Over the 
next six years VA plans to open eight National Veterans Burial Grounds 
in: Fargo, North Dakota; Rhinelander, Wisconsin; Cheyenne, Wyoming; 
Laurel, Montana; Idaho Falls, Idaho; Cedar City, Utah; Calais, Maine; 
and Elko, Nevada. This option will increase access to burial benefits 
to rural veterans and will help NCA to reach its strategic goal of 
providing a VA burial option to 94 percent of Veterans within a 
reasonable distance (75 miles) of their residence.
    AMVETS also believes it is important to recognize the NCA's efforts 
in employing both disabled and homeless veterans, which is another area 
that NCA leads the way among federal agencies. Programs include:

    <bullet>  The Homeless Veteran Supported Employment Program (HVSEP) 
provides vocational assistance, job development and placement, and 
ongoing supports to improve employment outcomes among homeless Veterans 
and Veterans at-risk of homelessness. Formerly homeless Veterans who 
have been trained as Vocational Rehabilitation Specialists (VRSs) 
provide these services;
    <bullet>  VA's Compensated Work Therapy (CWT) Program is a national 
vocational program comprised of three unique programs which assist 
homeless Veterans in returning to competitive employment: Sheltered 
Workshop, Transitional Work, and Supported Employment. Veterans in CWT 
are paid at least the federal or state minimum wage, whichever is 
higher; VA's National Cemetery Administration and Veterans Health 
Administration have also formed partnerships at national cemeteries, 
where formerly homeless Veterans from the CWT program have received 
work opportunities; and
    <bullet>  The Vocational Rehabilitation and Employment (VR&E) 
VetSuccess Program assists Veterans with service-connected disabilities 
to prepare for, find, and keep suitable jobs. Services that may be 
provided include: Comprehensive rehabilitation evaluation to determine 
abilities, skills, and interests for employment; employment services; 
assistance finding and keeping a job; and On the Job Training (OJT), 
apprenticeship, and non-paid work experiences.
Veterans Cemetery Grant Programs
    The Veterans Cemetery Grants Program (VCGP) complements the 
National Cemetery Administration's mission to establish gravesites for 
veterans in areas where it cannot fully respond to the burial needs of 
veterans. Since 1980, the VCGP has awarded more than $482 million to 41 
states, territories and tribal organizations for the establishment, 
expansion or improvement of 86 state veteran cemeteries. For example, 
the NCA can provide up to 100 percent of the development cost for an 
approved cemetery project, including establishing a new cemetery and 
expanding or improving an established state or tribal organization 
veterans' cemetery. New equipment, such as mowers and backhoes, can be 
provided for new cemeteries. In addition, the Department of Veterans' 
Affairs may also provide operating grants to help cemeteries achieve 
national shrine standards.
    In FY 2012, with an appropriation of $46 million, the VCGP funded 
15 state cemeteries and one tribal organization cemetery. These grants 
included the establishment or ground breaking of one new state cemetery 
and one new tribal organization cemetery, expansions and improvements 
at ten state cemeteries, and six projects aimed at assisting state 
cemeteries to meet the NCA national shrine standards.
    In fiscal year 2011, NCA-supported Veterans cemeteries provided 
nearly 29,500 interments. Since 1978 the Department of Veterans Affairs 
has more than doubled the available acreage and accommodated more than 
a 100 percent increase in burial through this program. The VCGP faces 
the challenge of meeting a growing interest from states to provide 
burial services in areas not currently served. The intent of the VCGP 
is to develop a true complement to, not a replacement for, our federal 
system of national cemeteries. With the enactment of the ``Veterans 
Benefits Improvement Act of 1998,'' the NCA has been able to strengthen 
its partnership with states and increase burial services to veterans, 
especially those living in less densely populated areas without access 
to a nearby national cemetery. Through FY 2012, the VCGP has provided 
grant funding to 88 state and tribal government veterans' cemeteries in 
41 states and U.S. territories. In FY 2011 VA awarded its first state 
cemetery grant to a tribal organization.
    This is an extremely cost effective program which will need to 
continue to grow in order to keep pace with ever increasing needs.
Veteran's Burial Benefits
    Since the original parcel of land was set aside for the sacred 
committal of Civil War Veterans by President Abraham Lincoln in 1862, 
more than 4 million burials, from every era and conflict, have occurred 
in national cemeteries under the National Cemetery Administration.
    In 1973, the Department of Veterans' Affairs established a burial 
allowance that provided partial reimbursement for eligible funeral and 
burial costs. The current payment is $2,000 for burial expenses for 
service-connected deaths, $300 for nonservice-connected deaths and a 
$700 plot allowance. At its inception, the payout covered 72 percent of 
the funeral costs for a service-connected death, 22 percent for a 
nonservice-connected death and 54 percent of the cost of a burial plot.
    Burial allowance was first introduced in 1917 to prevent veterans 
from being buried in potter's fields. In 1923 the allowance was 
modified. The benefit was determined by a means test until it was 
removed in 1936. In its early history the burial allowance was paid to 
all veterans, regardless of their service connectivity of death. In 
1973, the allowance was modified to reflect the status of service 
connection.
    The plot allowance was introduced in 1973 as an attempt to provide 
a plot benefit for veterans who did not have reasonable access to a 
national cemetery. Although neither the plot allowance nor the burial 
allowance was intended to cover the full cost of a civilian burial in a 
private cemetery, the recent increase in the benefit's value indicates 
the intent to provide a meaningful benefit. AMVETS is pleased that the 
111th Congress acted quickly and passed an increase in the plot 
allowance for certain veterans from $300 to $700 effective October 1, 
2011.
    However, we believe that there is still a serious deficit between 
the original value of the benefit and its current value. In order to 
bring the benefit back up to its original intended value, the payment 
for service-connected burial allowance should be increased to $6,160, 
the nonservice-connected burial allowance should be increased to $1,918 
and the plot allowance should be increased to $1,150. AMVETS believes 
Congress should divide the burial benefits into two categories: 
veterans within the accessibility model and veterans outside the 
accessibility model.
    AMVETS further believes that Congress should increase the plot 
allowance from $700 to $1,150 for all eligible veterans and expand the 
eligibility for the plot allowance for all veterans who would be 
eligible for burial in a national cemetery, not just those who served 
during wartime. Congress should increase the service-connected burial 
benefits from $2,000 to $6,160 for veterans outside the radius 
threshold and to $2,793 for veterans inside the radius threshold.
    Additionally, AMVETS believes that Congress should increase the 
nonservice-connected burial benefits from $300 to $1,918 for all 
veterans outside the radius threshold and to $854 for all veterans 
inside the radius threshold. The Administration and Congress should 
provide the resources required to meet the critical nature of the 
National Cemetery Administration's mission and to fulfill the nation's 
commitment to all veterans who have served their country so honorably 
and faithfully.
    Finally, AMVETS calls on Congress and the Administration to provide 
the resources required to meet the critical nature of the NCA mission 
so that it can fulfill the nation's commitment to all veterans who have 
served their country so honorably and faithfully.
    Does this mean that there are no areas needing improvement at NCA - 
absolutely not. From October 2011 through March 2012, NCA conducted an 
internal gravesite review of headstone and marker placements at VA 
National cemeteries. During that review a total of 251 discrepancies at 
93 National cemeteries were discovered which included:

    <bullet>  218 misplaced headstones;
    <bullet>  25 unmarked graves;
    <bullet>  8 misplaced veteran remains

    While these incidents were corrected in a respectful, professional 
and expeditious manner, the initial phase of NCA's internal review 
failed to identify, and therefore to report, all misplaced headstones 
and unmarked gravesites. Additional discrepancies came to light thanks 
to the diligent oversight of Chairman Miller and the HVAC which had 
tasked the IG with conducting an audit of the internal NCA review. The 
IG report highlighted several concerns and made corrective 
recommendations. Based on those recommendations, the Under Secretary 
for Memorial Affairs developed an appropriate action plan and AMVETS 
recommends continued oversight to ensure the carrying out of all 
corrective actions. This issue will be further explored in my oral 
remarks.
    This concludes my written statement.

    4 March 2013

    The Honorable Representative Jon Runyan, Chairman
    Subcommittee on Disability Assistance & Memorial Affairs
    U.S. House of Representatives, Veterans Affairs Committee
    335 Cannon House Office Building
    Washington, DC 20510

    Dear Chairman Runyan:

    Neither AMVETS nor I have received any federal grants or contracts, 
during this year or in the last two years, from an agency or program 
relevant to the upcoming 7 March 2013, Subcommittee on Disability 
Assistance & Memorial Affairs hearing on Sustaining the Sacred Trust: 
An Update on our National Cemeteries.

    Sincerely,

    Diane M. Zumatto, AMVETS
    National Legislative Director

                                 <F-dash>
             Prepared Statement of Ami D. Neiberger-Miller
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have the opportunity to submit this testimony on 
behalf of the Tragedy Assistance Program for Survivors (TAPS).
    TAPS is the national organization providing compassionate care for 
the families of America's fallen military heroes. TAPS provides peer-
based emotional support, grief and trauma resources, grief seminars and 
retreats for adults, Good Grief Camps for children, case work 
assistance, connections to community-based care, and a 24/7 resource 
and information helpline for all who have been affected by a death in 
the Armed Forces. Services are provided to families at no cost to them. 
We do all of this with no financial support from the Department of 
Defense. TAPS is funded by the generosity of the American people.
    TAPS was founded in 1994 by a group of surviving families following 
the deaths of their loved ones in a military plane crash. Since then, 
TAPS has offered comfort and care to more than 40,000 people. The 
journey through grief following a military death can be isolating and 
the long-term impact of grief is often not understood in our society 
today. On average, it takes a person experiencing a traumatic loss five 
to seven years to reach his or her ``new normal.''
    TAPS has extensive contact with the surviving families of America's 
fallen military service members, making TAPS uniquely qualified to 
comment on issues affecting the survivors left behind. TAPS receives an 
average of 13 newly bereaved survivors per day both from our 
relationship with the Services casualty officers and direct contact 
from those who are grieving the death of someone who died while serving 
the Armed Forces.
    In 2012, 4,807 new survivors came to TAPS for comfort and care. 
Thirty percent of the survivors coming to TAPS were grieving the death 
of a loved one in combat or in hostile action. Nineteen percent of the 
survivors coming to TAPS were grieving a loved one who died by suicide 
or in a suspected suicide under investigation. Fifteen percent of 
survivors reported a cause of death as ``unknown'' for their service 
member which often means a death is under investigation. Twelve percent 
were grieving the death of a loved one by sudden illness, and nine 
percent lost a loved one in an auto accident. Six percent lost a loved 
one in an accident and four percent were grieving someone who died in 
an aviation accident (typically a military training accident). Three 
percent were grieving the death of a loved one by homicide. One percent 
were grieving a death in a non-hostile incident, 0.7 percent lost a 
loved one in a noncombat incident, and 0.3 percent to friendly-fire.
    In 2012, approximately sixty-two percent of the family members 
coming to TAPS for support were grieving the death of a loved one who 
served in the Army. Sixteen percent of the families were grieving a 
loved one who served in the Marine Corps. Thirteen percent were 
grieving a loved one who served in the Navy, six percent were grieving 
the death of someone who served in the Air Force, and three percent 
were serving in the Coast Guard or another area.
    My name is Ami Neiberger-Miller, and I am the director of outreach 
and education at TAPS. I am a surviving family member of our fallen 
military. Tragedy struck my family in 2007 when my 22-year old brother, 
Army Specialist Christopher Neiberger, was killed in action in Baghdad, 
Iraq. My brother is buried in section 60 at Arlington National Cemetery 
among hundreds of others who gave the ultimate sacrifice in Iraq or 
Afghanistan. My father-in-law, Marine Corps Captain (retired) Norman 
Vann Miller, who died in 2003 of natural causes, is buried in section 
66 at Arlington National Cemetery. I began working with TAPS in October 
2007. In my role as a staff member with TAPS, I have supported many 
surviving families of our fallen military and veterans in communicating 
with Arlington National Cemetery and represented TAPS at meetings with 
the National Cemetery Administration.
    We have been asked by the subcommittee to discuss the state of 
``various Veterans' cemeteries, including upkeep and areas for 
improvement,'' including both the national cemetery system administered 
by the VA and Arlington National Cemetery, administered by the Army. 
The subcommittee staff also asked TAPS to provide comments on how 
cemetery errors and mistakes impact the bereavement journey for 
survivors and to highlight policy matters worthy of future attention.
I. Feedback about the national cemeteries that are administered through 
        the VA's National Cemetery Administration
    Our perspective at TAPS is anchored in our expertise - which is 
providing emotional support to anyone grieving the death of someone who 
died while serving in the Armed Forces. Our role is to support families 
in their grief - and when something goes wrong at a cemetery - we know 
it impacts how families cope with their loss.
    Since our founding in 1994, TAPS has worked cooperatively with the 
National Cemetery Administration (NCA) administered by the Department 
of Veterans Affairs. The national cemetery system is the ultimate 
metaphor for the TAPS model of honoring the service and sacrifice of 
all those who died while serving in the Armed Forces, regardless of 
where or how they died. The national cemetery system - with its 
pristine cemeteries and identical headstones - truly honors all who 
have served and died and are part of our nation's legacy of service and 
sacrifice.
    NCA inters service members and veterans, side by side, regardless 
of rank, cause of death, or station in life. Service is an equalizing 
factor in the VA cemetery system, and that is commendable, at a time 
when the military still presents different gold star pins based on 
cause of death and others reserve certain honors only for the families 
of those who are killed in action. The VA cemetery system recognizes 
all who have served their country and died and we applaud this spirit 
of equality and honor. The shrine status of our national cemeteries is 
deeply appreciated by survivors and reflects the care and devotion of 
our nation to honoring its war dead.
    Earlier this month, the VA announced that a review of every grave 
in the national cemetery system found 15 sets of remains buried in the 
wrong spots and nearly 800 other problems. We were concerned by the 
recent VA Office of the Inspector General report, ``National Cemetery 
Administration: Audit of Internal Gravesite Review of Headstone and 
Marker Placement.''
    The inspector general's office found that the VA's examination in 
its self-review was marred by a lack of ``an impartial and independent 
review procedure.'' VA officials also did not ``provide sufficient time 
and resources,'' and ``cemetery directors were overwhelmed and felt 
pressure to complete the review by the target date.'' The Office of the 
Inspector General found that at four of twelve national cemeteries, 
there were seven misplaced headstones or unmarked gravesites, as well 
as outdated and illegible maps.
    While the VA should be praised for initiating a review after 
problems were discovered at a cemetery in Texas, the haste of the 
review and lack of resources devoted to supporting the review is 
concerning. While VA has made adjustments and improvements in response 
to the Office of Inspector General report, the situation remains 
troubling.
II. Arlington National Cemetery
    We continue to be encouraged by progress being made at Arlington 
National Cemetery under new leadership. The new telephone system, GPS 
mapping system, website, and plans for growth with the Millennium 
project are moving the cemetery's management from being behind the 
times, to becoming a leader in innovation and development. We feel this 
track record of progress is helping surviving families move forward 
beyond the scandals and revelations of 2010. TAPS has worked 
proactively with surviving families and the administration of Arlington 
National Cemetery for many years. We hosted a public forum in 2010 for 
families to meet the new superintendent and executive director of the 
Army Cemeteries Program. We also supported families grappling with the 
burial issues at the cemetery, including two families who dis-interred 
their loved ones to determine if they were buried in the correct 
locations. We are relieved to be beyond those difficult days and to see 
improved management and financial oversight in place at Arlington 
National Cemetery.
Survivor Representative Needed on the Arlington National Cemetery 
        Advisory Committee
    The community of surviving families was saddened greatly by the 
death from cancer of Janet Manion in April 2012. Mrs. Manion was a gold 
star mother who served on the Advisory Committee for Arlington National 
Cemetery. Her son is buried at Section 60 among the many other heroes 
who gave their lives in Iraq and Afghanistan in these recent wars. Some 
of the families with loved ones buried at Section 60 participate in 
programs with the foundation that Mrs. Manion established in memory of 
her late son. Mrs. Manion was the only identified surviving family 
member of a service member buried at Arlington National Cemetery on the 
committee, and no survivor has been named to replace her. The seven 
current members of the committee all have exceptional credentials with 
the military and veterans service, but none are identified as a 
surviving family member. This important stakeholder population - the 
families that are grieving their loved ones at Arlington National 
Cemetery - is impacted by decisions made by the advisory committee and 
could contribute greatly to the decisions this committee makes, and we 
believe they should have a representative on the committee.
Plans for the Section 60 Historical Memento Collection Project
    We would like to see plans finalized for the Army's historical 
collection project at Section 60, which pick up artifacts and mementoes 
of historical significance once per week and archive them. The project 
has been in a pilot phase now for a few years and while it has received 
positive feedback from families, its future remains unknown.
III. How Cemetery Errors and Mistakes Impact the Bereavement Journey 
        for Survivors
    It should be noted that most of the families TAPS works with are 
very pleased with the level of care and service they receive from the 
National Cemetery Administration and Arlington National Cemetery.
    We regularly file requests to help families address errors on 
headstones and grave markers, talk with VA staff about family concerns, 
and offer feedback and family input to VA officials and staff. TAPS 
attends the quarterly briefings conducted by the National Cemetery 
Administration with veterans' service organizations, where we are 
updated on activities within the cemetery system and can offer 
feedback.
    When problems arise, we work with NCA staff and Arlington National 
Cemetery staff to try to resolve matters. If a loved one's name is 
misspelled on the headstone, it can become a stumbling block for a 
family's grief. The newly-bereaved may struggle with completing what 
appears to be a relatively simple form to request a correction, because 
of the shock and struggle they are going through with their grief.
    Even more concerning, when a loved one's grave or memorial marker 
is mismarked, unmarked or moved without the knowledge of the family, 
trust is broken between the family and the institution that they have 
entrusted to care for the gravesite or interment site.
    If the family's trust in the institution of the cemetery is broken, 
then it is very hard to restore it. In some cases, this lack of trust 
can lead to families becoming angry and disillusioned. They may step 
away from completing the tasks of grieving, and focus on the cemetery 
and what has happened. This can be detrimental on a personal level and 
to the entire family - because instead of contemplating how to re-
assemble their lives after the death of a close loved one, the family 
is caught in addressing these other issues.
    Sometimes when issues arise, it is because cemetery staff or others 
want to spare survivors any pain. In our experience, it is always 
better to be honest with surviving families than to avoid telling them 
the truth. Over and over, we have seen families get upset and hurt, not 
when they are told difficult things and given updates, but when they 
are led to believe that someone is hiding information from them, when 
someone is not listening to them, and or when someone is not telling 
them the truth.
    How cemetery staff and leaders respond when something goes wrong 
can play a pivotal role in helping families step forward beyond their 
hurt over an error. Cemetery staff would benefit from training in how 
to work with surviving families when problems arise so they can 
communicate clearly with families. TAPS is able and willing to provide 
training at a national level to assist national cemetery or Arlington 
National Cemetery staff.
IV. Limitations of the Corey-Shea Act
    An area that TAPS would like to bring to the attention of the 
subcommittee is the limitations of the Corey-Shea Act (Public Law 111-
275, Title V, Section 502) and its impact on surviving military 
families. This act permits the burial or interment of a parent with 
their child who served in the military and died by hostile action or 
from a training-related injury in a national cemetery. Parents are only 
eligible if the service member does not leave behind a spouse or child 
who would be eligible to be interred with the service member, and if 
the Secretary of Veterans Affairs determines that there is space 
available at the gravesite.
    It is not uncommon for grieving military parents to want to be 
buried with their children. TAPS supports the Corey-Shea Act for 
assisting these parents in fulfilling this desire. However, not all 
grieving military parents are eligible for these burial privileges, 
because the Corey-Shea Act limits eligibility to only cases where a 
service member dies due to hostile action or from an injury incurred in 
military training.
    A surviving father named Frank Contreras of Albuquerque, New Mexico 
recently made contact with TAPS requesting help because he would like 
to be buried with his son, Army Specialist Vincent Frank Contreras. 
Specialist Contreras died at age 20 in an auto accident on September 3, 
2011 while deployed in Germany for training. He is buried at Santa Fe 
National Cemetery.
    Mr. Contreras was initially cheered by the passage of the Corey-
Shea Act and the initial media reports about it, but then he discovered 
that he was not eligible for burial because of the location and manner 
of his son's death. Mr. Contreras raised his son as a single parent and 
Vincent was his only child. Mr. Contreras had a close relationship with 
his son. In the obituary published for Specialist Contreras, Mr. 
Contreras is the only survivor and there are no other family members 
listed.
    When asked why he wants to be buried with his son, Mr. Contreras 
said, ``This would mean a lot to be right with him. I'd like to just be 
with him. One day I'll be ready to visit him, but it would be better if 
I was with him . . . My only wish is to be with him when I die. He was 
only twenty-years old when he died. I would like for my last thing in 
life to be buried with him. It would be the greatest thing on earth. 
That would mean a lot, just to know that I would be there. It's hard to 
describe, but that's a man's dream to be buried - it's my dream to be 
buried with my son.''
    If Specialist Contreras had died on the training field, his father 
would be eligible to be buried with him. But because he died on a 
roadside while in Germany for training, his father is not eligible for 
burial benefits. For other military families whose loved ones do not 
die in combat or from a training-related injury, the same denial of 
this benefit happens. If their loved one dies from a sudden illness, a 
cancer potentially-related to burn-pit exposure in Iraq or Afghanistan, 
by homicide, suicide, or in an accident off-base, their parents cannot 
request to be buried with them in a national cemetery.
    Because of its negative impact on survivors whose loved ones did 
not die in combat or from a training-related injury, TAPS would support 
the future expansion of the Corey-Shea Act to include surviving parents 
of service members, regardless of manner of death or location of death, 
in cases where the veteran does not leave behind an eligible spouse or 
child, and in cases where the Secretary of Veterans Affairs, or the 
appropriate representative, determines that there is space at the 
gravesite for the interment of additional remains.
V. VA and Arlington National Cemetery's Burial Waiver Request Process
    One might think a potential solution for ineligible parents like 
Mr. Contreras, would be to apply to the Secretary of the VA for a 
waiver, requesting burial with their child in a national cemetery. A 
similar waiver process exists at Arlington National Cemetery. Waivers 
could, in theory, resolve the matter on a case-by-case basis. However, 
the process of requesting a waiver for burial or interment in a 
national cemetery, or at Arlington National Cemetery, is an area where 
these grieving parents can find no relief.
    While Mr. Contreras and other parents ineligible for burial 
benefits with their children could request waivers- they would have to 
die not knowing if their requests to be buried with their children 
could be granted.
    In practice, the VA typically does not grant waivers until after 
the person has died. Meaning - emotionally - the parent has to die 
without knowing if the request to be buried with the child will be 
permitted. When talking with another parent about the waiver process a 
few years ago before the Corey-Shea Act was passed, a surviving mother 
told me she found no relief in having to die without knowing if she 
would be placed with her son.
    Because the VA interprets that it must determine ``at the time of 
need'' if space is available for someone who is ineligible, the people 
desiring waivers have to die not knowing if their waiver requests will 
be granted. Arlington National Cemetery's policies outline a similar 
policy for waivers, which reference applications by a Next of Kin for a 
decedent.
    In a 2011 memorandum VA examined National Cemetery Administration 
records from 2001 to 2009 to determine the potential impact of the 
Corey-Shea Act. NCA's examination found a total of 135 requests for 
waivers were received. Twenty-three of the 135 waiver requests were for 
the burial of parents. VA approved only 8 of the 23 requested burial 
waivers for parents. It is reasonable for a parent to expect, with only 
this type of information available, that his or her request to be 
buried with a child may not be granted.Dying without knowing whether 
one can be buried with one's child when a parent desires it, is an 
emotional burden for a grieving parent to carry.
    This is an area where better defining the waiver request process 
could help survivors. Perhaps the National Cemetery Administration and 
Arlington National Cemetery could make a preliminary determination on a 
waiver request, so parents would have more assurance before their 
deaths, if their desire to be buried with their children could be 
granted.
    Additionally - due to the VA's recent decision to grant a waiver 
for burial for a same-sex spouse, Nancy Lynchild, in the VA's 
Willamette National Cemetery in Oregon, it is reasonable to believe 
that more waiver requests will be filed in the next few years.
    Even this landmark case illustrates the challenges found in the 
waiver request process for military and veteran families. The burial 
waiver was requested in December by Lynchild's spouse, Air Force Lt. 
Col. (ret.) Linda Campbell, who will be eligible to be buried in a 
national cemetery when she dies. Her spouse died in late December and 
the VA made a decision on the waiver request in January. So Lynchild 
died not knowing where her remains would be placed, and Lt. Col. (ret.) 
Campbell agonized over funeral arrangements for several weeks in hopes 
that the request might be granted.
    While the Department of Defense has indicated that it is actively 
examining the implications of providing burial benefits for same-sex 
spouses, it may take a long time for the VA and the Department of 
Defense to work out how these benefits will be applied in practice. As 
same-sex marriage relationships are becoming more accepted in our 
society, VA and Arlington National Cemetery may receive more waiver 
requests for interment while these official policies are being examined 
and put into place.
    We believe that improving the waiver process with greater clarity 
and earlier decision-making could alleviate some of the pain that 
grieving families now experience in the waiver process.
VI. Recommendations for Improvement
    (1) Provide sensitivity training in how to work with bereaved 
families for national cemetery staff and Arlington National Cemetery 
staff. TAPS has conducted training for the Fisher House staff, USO 
volunteers at the Dover Port Mortuary, military casualty assistance 
officers and chaplains in all services, and other volunteers in partner 
organizations on how to provide compassionate and empathetic care for 
surviving military families. TAPS welcomes the opportunity to provide 
this training, at no cost, to VA cemetery staff who come in contact 
with grieving families.

    (2) Consider asking or supporting national cemetery staff or 
Arlington National Cemetery staff who work directly with families to 
pursue professional certification in bereavement, such as the 
certification in thanatology program offered by the Association for 
Death Education & Counseling.

    (3) Encourage cemetery staff to connect with TAPS when emotional 
issues arise, so we can help them facilitate the solution the family 
seeks, while addressing the family's bereavement needs.

    (4) Nominate or appoint a surviving family member with a loved one 
interred at Arlington National Cemetery and a willingness to listen to 
other survivors to join the Advisory Committee for Arlington National 
Cemetery.

    (5) Formalize the memento collection program at Arlington National 
Cemetery.

    (6) Consider legislatively modifying the Corey-Shea Act to include 
surviving parents of active duty service members who are buried in a 
national cemetery, regardless of location of death or cause of death, 
in circumstances where the service member does not leave behind an 
eligible spouse or child.

    (7) Clarify and further define the waiver request process for the 
national cemetery system and Arlington National Cemetery, so those 
requesting interment or burial waivers can receive an indicator of a 
decision prior to their death, even if it can not be a finalized 
decision.

    Thank you for the opportunity to submit this testimony on behalf of 
the Tragedy Assistance Program for Survivors (TAPS).
Executive Summary
Introduction
    Because of our role in caring for thousands of surviving families 
left behind by America's fallen military since 1994, the Tragedy 
Assistance Program for Survivors (TAPS) is uniquely qualified to 
comment on our national cemeteries and Arlington National Cemetery.
I. Feedback about the cemeteries administered through the VA's National 
        Cemetery Administration
    Concern is expressed about the recent Office of the Inspector 
General report, but it should be noted that most surviving families are 
pleased with the care they and their loved ones receive at our national 
cemeteries.
II. Arlington National Cemetery
    The cemetery leadership has made stellar advancements from where we 
were two and a half years ago. Discusses the Arlington National 
Cemetery Advisory Committee and the memento collection project.
III. How Cemetery Errors and Mistakes Impact the Bereavement Journey 
        for Survivors
    Discusses the impact of cemetery errors and mistakes on the grief 
carried by surviving military families.
IV. Limitations of the Corey-Shea Act
    Parents of service members who do not die due to hostile act or in 
a training incident remain ineligible for interment in national 
cemeteries with their children.
V. VA and Arlington National Cemetery's Burial Waiver Request Process
    Expresses concern about the burial waiver request process, which 
may see an increase in requests, due to recent developments. Recommends 
changes be made so requestors can get an earlier determination on 
decisions.
VI. Recommendations for Improvement
    (1) Provide sensitivity training in how to work with bereaved 
families for national cemetery staff and Arlington National Cemetery 
staff. TAPS is willing to assist with this type of training at a 
national level.

    (2) Consider asking or supporting national cemetery staff or 
Arlington National Cemetery staff who work directly with families to 
pursue professional certification in bereavement.

    (3) Encourage cemetery staff to connect with TAPS when emotional 
issues arise, so we can help them facilitate the solution the family 
seeks, while addressing the family's bereavement needs.

    (4) Nominate or appoint a surviving family member with a loved one 
interred at Arlington National Cemetery and a willingness to listen to 
other survivors to join the Advisory Committee for Arlington National 
Cemetery.

    (5) Formalize the memento collection program at Arlington National 
Cemetery.

    (6) Consider legislatively modifying the Corey-Shea Act to include 
surviving parents of active duty service members who are buried in a 
national cemetery, regardless of location of death or cause of death, 
in circumstances where the service member does not leave behind an 
eligible spouse or child.

    (7) Clarify and further define the waiver request process for the 
national cemetery system and Arlington National Cemetery, so those 
requesting interment or burial waivers can receive an indicator of a 
decision prior to their death, even if it cannot be a finalized 
decision.
DISCLOSURE STATEMENT
    Neither Ami Neiberger-Miller, nor the Tragedy Assistance Program 
for Survivors (TAPS), have received any Federal grant or contract, 
relevant to the subject matter of this testimony, during the current or 
previous two fiscal years.

                                 <F-dash>
                        Statement For The Record

                      STATEMENT OF KARI LIN COWAN
    Chairman Runyan and Subcommittee Members, thank you for providing 
me this opportunity to offer testimony on the important issue of 
Sustaining the Sacred Trust as it pertains to our National Cemeteries.
Introduction
    I am Kari Lin Cowan and I am the surviving spouse of CW3 Aaron 
William Cowan, United States Army. CW3 Cowan, a 19 year member of the 
United States Army, suffered a line of duty death as a result of a 
combat aviation mishap in Paju, South Korea on February 26, 2005.
    On May 7, 2005 my husband Aaron's cremains were interred at sea 
pursuant to his wishes.
    I allowed our son Logan, who was 8 years old at that time, to 
choose the point of embarkation for the interment. The interment 
ceremony was performed by honor guard and attendant crew of the USS 
Lake Erie during a mission off the coast of Oahu, Hawaii. In keeping 
with the desire to memorialize Aaron near his burial site we 
subsequently chose to memorialize Aaron at the National Memorial 
Cemetery of the Pacific. Logan and I traveled to Hawaii in June of 2005 
at the invitation of the captain and chaplain of the USS Lake Erie to 
have lunch aboard ship and to receive Aaron's burial flag and 
photographs of the interment ceremony.
    While in Hawaii we intended to visit the Punchbowl to visit the 
memorial marker. Unfortunately we learned prior to the trip that the 
marker had been engraved incorrectly. Cemetery staff informed me that 
the marker had been removed and a new one would made locally.
    We returned to Hawaii in February 2006 to mark the first 
anniversary of Aaron's passing. I contacted the cemetery staff ahead of 
my visit, had a vase installed and the cemetery staff marked the newly 
made memorial marker with a flag so we could locate it upon our 
arrival.
    The trips I made with my son Logan to Hawaii were solely for the 
purpose of remembrance and healing. Hawaii provided us with remarkable 
opportunities to spend extraordinary quality time bonding and growing 
together. We did not simply fly to Hawaii, visit the cemetery and leave 
flowers. Our trips were meaningful. Every bouquet was hand-picked at 
the farmers market and hand-made and placed by us. We learned the lay 
of the land at the Punchbowl and visited every single section and 
memorial site. It was a rich history lesson in a beautiful, peaceful 
setting.
    On each and every trip we honored Aaron's love of aviation by doing 
memorial helicopter flights in his honor. We visited a different island 
each trip and did the things that Aaron would have enjoyed. We hiked 
the active lava fields of Kilauea, experienced volcanic earthquakes and 
visited the USGS seismographs to watch them in point of time. We made 
long and difficult journeys to places like a green sand olivine beach 
at the southernmost point of OCONUS. We watched the sunset and star-
gazed late into the night at the Mauna Kea observatories. On Christmas 
morning we watched the sun rise at 14,000 feet on Mt. Haleakala and 
then rode bikes down the mountain, 30 miles to the sea. During our 
visits we lived in his spirit and in his honor. Our last trip in 
December 2011 was no exception. Then everything changed forever. Again.
The Missing Marker
    We visited the National Memorial Cemetery on December 28th in part 
to pay our respects and to remember Aaron's December birthday. When 
Aaron was interred at sea by the Navy we were given a map with the 
burial coordinates. I subsequently did research in 2008 on Google Earth 
and annotated the memorial marker coordinates. During our visits to the 
cemetery we mapped out the location of the marker in a manner similar 
to orienteering. This skill made it possible for us to navigate 
directly to the marker. So when on December 28, 2011 we walked to where 
we knew the marker had been, and it was not there, confusion ensued. I 
immediately felt a sense of panic and disorientation and I set my son 
on the task to find the marker by number. He did eventually find the 
marker #366 which had previously occupied the next to last position in 
row 9, 35 yards away and in the 10th row in the first position.
    I left my son in the section and went to the cemetery office for an 
explanation. I carried with me photographs on my smart phone that did 
show the original location of the marker.
    The events that transpired when I made contact with the cemetery 
staff revealed a serious problem in how such issues are handled at that 
particular location. I was ignored and summarily dismissed as someone 
who simply ``was confused'' or ``did not remember'' where the marker 
was. I was asked which section was involved and when I said MB I was 
told ``oh, it's just a marker.''
    I had no choice but to press the issue and refuse to leave the 
office. I was told the Cemetery Director was on vacation and nothing 
could be done. I refused to leave until the Director was called. He was 
reached two hours later and advised of the situation but I did not 
speak to him. Not only was the marker in a different location, the urn 
I had purchased was not moved with it and that became a secondary 
issue. I could not leave the flowers I brought because the urn was 
missing. I was then told it had probably rotted or had been stolen. 
Given the fact the marker had been relocated it seemed more logical and 
probable that the urn had been misplaced. I returned to the MB section 
with the Public Affairs Specialist. She had been recently employed and 
was not familiar with the section or its layout. I took her to the 
marker section and walked her to where the marker had once been 
emplaced and then to the new location. I showed her the photographs I 
had with me on my smart phone. She gave them a cursory glance.
    The Public Affairs Specialist and I were standing next to my 
husband's marker in the new location when the head groundskeeper 
approached me and began to verbally assault me. He was very aggressive 
and insistent that the markers had never been moved and that something 
like that never happens. He stated that I just did not remember or know 
what I was talking about. He got in my personal space and acted in a 
menacing and hostile manner. I was so incensed that he would behave 
this way in front of my husband's memorial, his son and his wife and 
that the Public Affairs Specialist just stood there silently. I 
demanded he get out of my face and leave me alone. I had to get very 
aggressive with him to make him understand that I was absolutely not 
going to condone such behavior.
    I was hopeful when I left that day that although unresolved, there 
would be a resolution. I was promised I would be contacted by the 
Director, but I never was, and to date I never have been.
    The PAS made the effort to ensure another urn was placed at the 
marker and she personally placed the flowers and sent me photographs of 
them the next day, December 29, 2011. She also included a statement in 
her e-mail that although not explicit, made reference to the missing 
urn and marker as: the ``doubly unpleasant surprise you encountered'' 
during the visit on December 28, 2011. That would be the last time 
until April 27, 2012, when the cemetery officially acknowledged their 
error, that an admission as to what happened to the marker would be 
made by the cemetery staff or officials.
The Investigation
    When I returned home on January 1, 2012 I began doing research, 
compiled my evidence and information for a complaint and enlisted the 
assistance of Congressman Gus Bilirakis' office to resolve the issue. 
At the same time I filed my complaint, the Honorable Jeff Miller 
ordered an investigation into all 131 national cemeteries including a 
national audit. I enlisted the help of investigative reporters at the 
Washington Post and the Honolulu Star. I immediately learned of the 
national cemetery controversies occurring nationwide. The investigative 
reporters began making inquiries of National Memorial Cemetery of the 
Pacific's Director Gene Castagnetti. What ensued were serial denials 
made by Cemetery Director Gene Castagnetti through the Public Affairs 
Specialist to the press. I was never contacted directly after I left 
Hawaii on January 1, 2012. All statements made by Director Castagnetti 
were made indirectly to the press or to my congressional caseworkers in 
response to investigative inquiries on my behalf.
Resolution
    Subsequent to filing the Congressional, the Regional Director for 
the National Cemetery Administration Bradley Phillips became involved 
in my case. Director Phillips was deeply apologetic and by April 27, 
2012 the NCA officially acknowledged that the marker had been moved. 
Ahead of official findings, on May 3, 2012 during a conference call 
with my congressional caseworkers, Director Phillips agreed to fulfill 
my request to have the marker in Hawaii destroyed and a new one made 
and emplaced at Fort Bayard National Cemetery.
    Fort Bayard National Cemetery is in my husband's home state of New 
Mexico. Now emplaced in this location, the memorial marker is easily 
accessible to his immediately family.
Public Law 97-66
    The decision my husband made to be interred at sea and be 
memorialized with a marker at a national cemetery was made possible 
under provision of Public Law 97-66 enacted on October 17, 1981. In 
summary this Act expanded eligibility for memorial markers to include 
all veterans; whose remains have not been recovered or identified; 
whose remains were buried at sea, donated to science or cremated and 
required that suitable land was set aside at each cemetery for this 
purpose. Public Law 97-66 effectively established a sacred place meant 
to memorialize the lives of all veterans and their distinguished lives 
of service regardless of the disposition of their remains.
The Findings
    In December of 2012, I was apprised by Director Phillips of the 
NCA's final findings. The findings were that in fact the marker was 
moved. The findings also concluded that in fact no documentation other 
than what I furnished exists to explain how or when it happened.
    Therein lays the breach.
    I easily found past news articles in the Honolulu Star in which 
Director Castagnetti indicated the renovation began in 2009. I found 
another article specifically addressing the fact that the first 
contractor hired for the Punchbowl Millennium Renovation project was 
fired for performance failures.
    The Director knew or should have known that there may have been 
past and potential ongoing contractor error. No safeguards were put in 
place to prevent such errors and no oversight was provided. I 
personally witnessed the haphazard manner in which urns were removed 
from the ground, displaced from their graves and left unmarked. 
Newspaper articles frame other family members' accounts of this and the 
reporter I sent to the Punchbowl witnessed this as well. The claim that 
the cemetery has no documentation or information to explain the 
movement of the markers in the MB section is refutable. I personally 
saw a map in 2006 showing the original emplacement and on December 28, 
2011 I was shown the new map with the marker in the new location. 
Further, early in the investigation, Director Castagnetti stated that 
the marker ``was where it belonged.'' Taken together these events 
indicate that the movement was planned.
Duty and Breach of Sacred Trust
    It is my understanding that the National Cemetery audit is 
complete. It is also my understanding that an insignificant percentage 
of errors regarding markers and burial issues are being reported by the 
national cemeteries. These reported errors may be few in number but are 
so egregious in nature that statistical minimization serves no 
satisfactory purpose. One cannot simply say that a marker was 
erroneously moved, or that it was only a few, they are just markers, 
there were no remains involved and just dismiss the egregious nature of 
the causal action. The breach of sacred trust is not limited to or 
dependent on whether remains are involved. The sacred trust extends to 
the memorial. Movement of a marker associated with remains may be more 
egregious by degree than one moved without associated remains, but the 
duty is the same. Barring some unforeseen natural disaster or 
circumstance, I expected that a duty existed by which I would be 
properly noticed if there was such an occurrence that necessitated the 
removal or relocation of the memorial marker. I did have the 
expectation that barring such extreme circumstances that my husband's 
memorial would be in its original location of emplacement each time I 
returned and perpetually thereafter.
    It is my firm belief that there was a failure of due diligence and 
oversight. The onus is on the director to ensure the integrity of the 
sacred trust. He should be held accountable for his failure to act in a 
manner consistent with the honor of accepting personal and professional 
responsibility for safeguarding the sacred trust. The director was 
remiss and breached that duty. The result was negative oversight of a 
multi-million dollar invasive renovation project (Millennium Renovation 
Project). This project caused the markers to be susceptible to 
relocation; the risk of which was foreseeable. Further, the director 
was careless and remains ignorant of the cause and occurrence of the 
breach and failed to directly address my concerns. The director owes a 
duty to the deceased and their families and he was negligent in his 
conduct as director. To this day I have never had discourse with the 
director regarding this issue. I credit the regional director and his 
commitment to finding the facts. He conscientiously reviewed the 
substantial evidence I submitted in the form of satellite and personal 
photographs. Otherwise, I would have no satisfaction and the outcome 
would be unresolved in favor of arrogant denial. I was not allowed to 
be informed of any remedial measures at the Punchbowl other than re-
training of staff had taken place. Whether Director Castagnetti has 
been held accountable remains unknown to me.
The Burden
    There is no question that in such a situation as mine the burden 
should have fallen on the cemetery director to compassionately address 
my concerns, make a proper procedural inquiry into the matter and 
acknowledge my evidence supporting the facts of the complaint. Instead 
not only was the burden of proof shifted to me, I also faced a 
significant hurdle caused by a culture of disrespect and disregard 
toward the memorial markers in the section that lacked remains.
    Through my paralegal education I was uniquely qualified to 
undertake such an effort to prove my case. I had the competent 
assistance of trained and experienced Congressional caseworkers to help 
me achieve the end result. I was fortunate. The average family member 
does not necessarily have the skills, knowledge or training or 
individuals at their immediate disposal to help them facilitate a 
resolution when the sacred trust is breached. There clearly exists a 
lack of compassionate outreach to the families and a culture exists 
that minimizes the severity of the impact of the breaches of sacred 
trust in question. In all my research into VA policies and guidelines I 
found nothing that would give guidance on how to proceed under the 
circumstances at issue.
Future Remedies
    I have been asked how I believe these incidents should be handled 
in the future. There is no question that this issue speaks to an 
institutional lack of common sense and a comprehensive failure of 
respect for the living and the deceased. Every complaint should be 
subject to the same principle. Every complaint is valid until proven 
otherwise and the burden should be on the administration and not the 
complainant. If common decency cannot dictate this process then some 
method of procedure must be implemented. Protocols for re-training 
staff how to compassionately interact with family members of the 
deceased need to be developed. Every individual should be treated with 
common courtesy, dignity and respect no matter what the concern. Had I 
been treated with a modicum of respect and had my issue been properly 
investigated rather than minimized and denied, the outcome would have 
been significantly different. I may have been willing to accept the 
mistake. The intervention I sought from Congressman Bilirakis's office 
was an effective form of mediation without which my complaint would 
have been summarily dismissed by Cemetery Officials. I would have then 
been barred from receiving any resolution. While necessary this simply 
is not an acceptable complaint resolution process. The VA has a long 
history of reliance on congressional offices to remediate veterans' 
issues. The VA should not rely on congressional offices to mediate 
their disputes simply because they have failed to implement appropriate 
procedures to address failures of service and breaches of trust. I 
would not discount the future viability of an alternate dispute 
resolution process conducted by a specially trained ombudsman or 
mediators within the VA/NCA. It must be an effective process that is 
easily accessible to the complainant and one that does not unjustly 
burden the complainant. This would shift the burden of responsibility 
back to the VA and help to eliminate or alleviate abuses of valuable 
congressional resources.
Conclusion
    I am grateful I was granted the request to have my husband's marker 
destroyed so that another could be emplaced in NM. I have no confidence 
in Director Castagnetti and I could no longer go to a place where 
Aarons' memory had been disrespected and my son and I had been 
mistreated. Aaron's family has benefitted greatly from the emplacement 
of the new marker and they too are grateful. I have not yet had the 
opportunity to see it other than in photographs. I do not expect to see 
it in the foreseeable future. While I appreciate this resolution it 
does not diminish the emotional impact of what occurred. It also does 
not allay the concerns I have over stewardship.
    I believe my complaint was met with vehement denials because the 
protection of the reputation of the director was paramount to exposing, 
admitting to and resolving a serious problem. It was also clear to me 
that the prevailing attitude was that I would be geographically 
frustrated when I returned home and the matter would be forgotten. 
Logan was 15 on the day we discovered the marker was missing. Logan is 
a Civil Air Patrol Cadet Officer and Air Force trained honor guardsman. 
He has been instilled with deep respect for his sanctity of all 
veterans lost in the line of duty. Something we found lacking at 
Punchbowl. Logan was so distraught that day that I had to make 
emergency flight arrangements to remove him from Oahu. There can be no 
real solace for me and my son. Our loss has been compounded by these 
events. For us there is no substitute for the special place we relied 
on and considered to be a permanent and safe haven in which to find 
peace, serenity, and healing from tragedy and where we could honor and 
remember Aaron.
    It was my husband's sincere desire in life to effect positive 
change. Through my statement on his behalf I am confident his desire is 
posthumously fulfilled. Thank you for this opportunity.

                                 <all>

</pre></body></html>
